<html>
<title> - EXAMINING THE HUMAN HEALTH IMPACTS OF GLOBAL WARMING</title>
<body><pre>[Senate Hearing 110-1212]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1212
 
          EXAMINING THE HUMAN HEALTH IMPACTS OF GLOBAL WARMING

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON

                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 23, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works




       Available via the World Wide Web: http://www.fdsys.gpo.gov


                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
73-578                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming<SUP>1</SUP>
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                                 ------                                

<SUP>1</SUP>Note: During the 110th Congress, Senator Craig 
    Thomas, of Wyoming, passed away on June 4, 2007. Senator John 
    Barrasso, of Wyoming, joined the committee on July 10, 2007.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 23, 2007
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     4
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................     5
Craig, Hon. Larry E., U.S. Senator from the State of Idaho.......     8
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland    17
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    21

                               WITNESSES

Gerberding, Hon., Julie Louise, Director, Centers for Disease 
  Control and Prevention Accompanied by: Howard Frumkin, 
  Director, National Center for Environmental Health Agency for 
  Toxic Substances and Disease Registry..........................     9
    Prepared statement...........................................    11
McCally, Michael, Executive Director, Physicians for Social 
  Responsibility.................................................    23
    Prepared statement...........................................    24
Cooper, Susan R., Commissioner, Tennessee Department of Health...    39
    Prepared statement...........................................    40
    Responses to additional questions from:
        Senator Inhofe...........................................    43
        Senator Boxer............................................    43
Roberts, Donald R., Professor Emeritus, Uniformed Services 
  University of the Health Sciences..............................    45
    Prepared statement...........................................    46
    Responses to additional questions from:
        Senator Inhofe...........................................    49
        Senator Boxer............................................    51

                          ADDITIONAL MATERIAL

Letters:
    Benjamin, Georges C., MD, FACP, FACEP (Emeritus), Executive 
      Director, American Public Health Association...............    57
    Libbey, Patrick M., Executive Director, National Association 
      of County and City Health Officials (NACCHO)...............    59
    Heymann, David L., Assistant Director-General for 
      Communicable Diseases, and Representative of the Director-
      General for Polio Eradication..............................    61
Position statement, Association of State and Territorial Health 
  Officials (ASTHO), Climate Change and Public Health............    65


          EXAMINING THE HUMAN HEALTH IMPACTS OF GLOBAL WARMING

                              ----------                              


                       TUESDAY, OCTOBER 23, 2007

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Inhofe, Bond, Craig, Cardin, 
Whitehouse, and Barrasso.

STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE STATE OF 
                           CALIFORNIA

    Senator Boxer. The hearing will come to order.
    Because of our time constraints, I am going to reduce the 
time for Senators to 3 minutes for opening statements. If 
colleagues come in after we have begun the panel, they can work 
those opening statements into their questions.
    Good morning everyone. We all know the threat of global 
warming. There may be differences on what is causing it, but 
today we are going to deal with those threats. The World Health 
Organization has estimated that human-induced changes in the 
earth's climate lead to at least three million cases of illness 
and more than 150,000 deaths a year.
    We need to start at 4 minutes, so it should be 3:32 right 
now.
    Global warming can affect public health in many ways. 
Increased temperatures due to global warming can cause more 
frequent and more severe heat waves, which can cause illness 
and even death. For example, the European heat wave of 2003 
caused countless numbers of illnesses and claimed 35,000 lives. 
Leading scientists are telling us that if we have more extreme 
weather events like this, and as the planet warms, it is very 
likely to affect our health. I think Dr. Gerberding's written 
testimony certainly underscores that.
    The WHO predicts that in my home State of California, heat-
related deaths could more than double by 2100. As I mentioned, 
California, I just want everyone to think as positively as they 
can for the people affected by these raging fires and for the 
emergency workers and particularly firefighters who are putting 
their lives on the line.
    Scientists from the World Health Organization, the EPA, and 
the IPCC are also concerned that global warming may contribute 
to the spread of certain mosquito-borne diseases like malaria. 
It could help spread certain viruses and other disease-causing 
organisms to new areas.
    Global warming also might contribute to an increase in 
water- borne diseases including cholera, which causes severe 
diarrhea. Drought can cause the spread of water-borne diseases 
by wiping out supplies of safe drinking water and concentrating 
pollution. Floods can fuel water-borne illnesses as well. They 
wash sewage and other sources of pathogens into supplies of 
drinking water.
    We are beginning to see what happens when water warms. The 
Associated Press reported on September 28, and I ask unanimous 
consent to place that story in the record. Without objection.
    [The referenced document was not available at time of 
print.]
    Senator Boxer. They reported that a 14-year-old boy died 
from an infection caused by an amoeba after diving in Lake 
Havasu. According to a CDC official, and I am going to ask you 
about that Dr. Gerberding, these amoebas thrive in warm water, 
and as water temperatures continue to rise, we can expect to 
see more cases of these amoeba infections.
    The world is changing. Global warming is expected to cause 
an increase of ground-level ozone or smog because more ozone is 
formed at higher temperatures. Smog damages lungs and can cause 
asthma in children. It can cause premature death, especially in 
vulnerable people.
    Our public health systems are already overburdened. Global 
warming will place tremendous new demands on public health 
officials. That is why we are having this hearing today. As Sir 
Nicholas Stern, former chief economist at the World Bank tells 
us, every dollar we spend today to reduce our greenhouse gas 
emissions would save $5 later. Certainly, as we look at the 
array of diseases I have just mentioned, that is clear.
    We are beginning to take action here in Congress with a 
bipartisan breakthrough in this Committee, and we are going to 
deal with all of these issues.
    I would like to welcome all our witnesses today, including 
Dr. Gerberding, Director of the CDC; Dr. Frumkin of the 
National Center for Environmental Health; Dr. McCally for 
Physicians for Social Responsibility; Susan Cooper from the 
Tennessee Department of Health and Dr. Roberts from the 
Uniformed Services University of the Health Sciences.
    I thank you all for being here today. Your testimony will 
make an important contribution to this record as we proceed.
    So although I said 3 minutes, it turned out to be 4 minutes 
per colleague, so let's get going.
    Senator Inhofe.

STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE 
                          OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    First of all, let me say that I am glad tomorrow we are 
finally having a Subcommittee hearing on actually legislation. 
We have had so many hearings on global warming and all these 
things, but not on any particular piece of legislation. So I am 
looking forward to the Warner-Lieberman legislation. I really 
believe, Madam Chairman, that we should really give this a 
long, deliberative hearing, several hearings, to get into all 
the details.
    In addressing today's hearing, I will say that it appears 
the issue of health and global warming, like so many areas, has 
fallen prey to politics. Reducing issues such as malaria to a 
simple and naive view that higher temperatures equal higher 
malaria rates is not only simple, but simply wrong. 
Temperatures area factor, but it is also true that malaria can 
spread where it is relatively colder.
    According to Paul Reiter of the Pasteur Institute in 
testimony before the Senate Commerce Committee last year, he 
said, ``The most catastrophic epidemic on record anywhere in 
the world occurred in the Soviet Union''--he is talking about 
malaria--``the 1920s with a peak incidence of 13 million cases 
per year and 600,000 deaths.'' You don't think of the Soviet 
Union as being a hotbed of malaria, but certainly it was.
    More important than temperatures are preventive measures 
and economic standards of living which, make no mistake, will 
be worsened by rash action to pass costly symbolic measures.
    As we will hear today, when you look beyond the rhetoric at 
the facts, malaria is very much a disease that we can greatly 
diminish or help flourish, depending on how we live and what 
policies we put into place.
    The facts are this: malaria was nearly wiped out a few 
decades ago by the use of DDT. This was not disputed. The 
disease now claims one million lives or more every year; again, 
not disputed. Regardless of the science of DDT, and it appears 
it did not support a ban, selective spraying can greatly 
diminish cases of malaria.
    It was only recently, after millions of deaths, that 
policies began to shift away from alarmism and toward the 
genuine concern for the people who were paying for the alarmism 
with their lives. Let's not let history repeat again.
    Madam Chairman, we have our markup in the Senate Armed 
Services that is taking place up in the sterile room upstairs, 
S-407, so I will have to be up there. It is required 
attendance, but I am glad we are ably represented here with 
logic to my right.
    Thank you.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Madame Chairman, I am concerned that this Committee is not focusing 
on what it should--to deliberate legislation. We have had hearing after 
hearing after hearing on what people think about global warming or what 
might happen if we have global warming. But little on what will happen 
if we legislate global warming. As of October 23rd, we have not had a 
single legislative hearing on any of the major bills.
    Tomorrow at the Subcommittee level, under the leadership of 
Chairman Lieberman, we will hold the first legislative hearing on a 
global warming bill. I commend Senators Warner and Lieberman for their 
hard work in crafting a bill and for holding tomorrow's legislative 
hearing. But tomorrow's hearing represents what should be the first 
step in the process, not the only step.
    A single hearing that receives testimony from a single witness 
expressing concerns about the bill--held a mere six days after 
introduction--falls far short of a considered and deliberative process. 
There has been no time to analyze the text of this bill, or for members 
of the Committee to obtain input from stakeholders concerned about how 
the bill will impact them, or for economists to model its impacts on 
the competitiveness of the American economy.
    Yet I understand there will be a markup next week of the bill. 
There is concern, Madame Chairman, that the full Committee examination 
will be even less substantive, even less deliberative. It is my hope 
that you will commit to conducting a thoughtful process similar to that 
which has been conducted in the past on major bills, providing us with 
specifics.
    In addressing today's hearing, I will say that it appears the issue 
of health and global warming, like so many areas, has fallen prey to 
politics. Reducing issues such as malaria to a simple and naive view 
that higher temperatures equal higher malaria rates is not only simple, 
but simply wrong. Temperatures are a factor, but it is also true that 
malaria can spread when and where it is relatively colder. According to 
Paul Reiter of the Pasteur Institute in testimony before the Senate 
Commerce Committee last year:
    ``The most catastrophic epidemic on record anywhere in the world 
occurred in the Soviet Union in the 1920s, with a peak incidence of 13 
million cases per year, and 600,000 deaths.''
    More important than temperatures are preventative measures and 
economic standards of living, which--make no mistake--will be worsened 
by rash action to pass costly symbolic measures. As we will hear today, 
when you look beyond the rhetoric at the facts, malaria is very much a 
disease that we can greatly diminish or help flourish, depending on how 
we live and what policies we put into place.
    The facts are this: malaria was nearly wiped out a few decades ago 
by the use of DDT. This is not disputed. The disease now claims one 
million lives or more every year--again, not disputed. Regardless of 
the science of DDT--and it appears it did not support a ban--selective 
spraying can greatly diminish cases of malaria. But it was only 
recently, after millions of deaths, that policies began to shift away 
from alarmism and toward a genuine concern for the people who were 
paying for that alarmism with their lives. Let us not repeat history 
here.
    Thank you.

    Senator Boxer. Logic always resides from your point of view 
on the right.
    [Laughter.]
    Senator Boxer. Senator Barrasso, welcome.
    Senator Barrasso. Thank you very much.
    Senator Inhofe. [Remark made off microphone].
    Senator Boxer. We agree that that is how you view it. Yes.

STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR FROM THE STATE OF 
                            WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman.
    My thoughts and prayers are with the folks of your home 
State today, the rescue workers, the firefighters and the 
residents.
    I am looking forward to this hearing this morning because 
for the last 20 years I have been doing television reports in 
my home State of Wyoming on preventable causes of diseases, 
giving people information that they can use to stay healthy, to 
keep down the cost of their medical care, and things they can 
do in prevention. That is people washing their hands and 
staying active and exercising more and eating less, getting 
adequate sleep. There are so many current day health problems 
that we need to deal with, such as malnutrition, HIV, potential 
issues with bird flu.
    What I am always doing is trying to seek that balance on 
how we can focus our resources and attention today on current 
day preventable problems, and at the same time looking for ways 
to prevent problems and help protect people in the future.
    So I am looking forward to today's hearings. Thank you very 
much, Madam Chair.
    Senator Boxer. Thank you so much.
    I believe, Senator Bond, you were next.

 STATEMENT OF HON. CHRISTOPHER S. BOND, U.S. SENATOR FROM THE 
                       STATE OF MISSOURI

    Senator Bond. Thank you very much, Madam Chair.
    I did move up. Normally I sit in the cheap seats, and I 
thought maybe with smaller attendance today I would be able to 
see what everybody else looked like. I second what my colleague 
who does agree with what Dr. Barrasso said about present day 
health problems. Obesity is something we are very much 
concerned about as well.
    I join with him in seeing the horrendous fires. We have 
friends out in California who have been driven from their 
homes. We want to provide any support we can, perhaps even from 
the Midwest. I know you are very short. We have crews that are 
willing to travel.
    I appreciate your holding the hearing today on the health 
effects of climate change. We often focus on the size of ice 
caps, some of them increasing and some of them decreasing; the 
number of glaciers or the health of polar bears, and some of 
those are increasing in population.
    But I think we also have to focus on the health of our 
families. Witnesses in testimony today I understand will focus 
on the health impacts of climate change, but there is something 
vital that is very missing in these considerations. The problem 
is not a single witness is expected to speak a single word on 
the specific health impacts that could result from the 
implementation of the proposed Lieberman-Warner carbon bill.
    Now, I don't believe there is any assurance that that is 
going to make any difference in global warming or climate 
change, at least not in the foreseeable future. But no one is 
asking will a solution we consider in Lieberman-Warner inflict 
more harm upon the American people than the things we are 
trying to avoid. It is hard to tell since the Committee will 
spend almost no time considering the details of the legislation 
it will mark up.
    As you know, several of us have shared with this Committee 
in a letter our severe misgivings about acting upon legislation 
which will receive almost no independent expert review or 
analysis. Given the chance, we might ask health experts about 
the health effects on fixed-income seniors, of going without 
prescription drugs because they must instead pay for higher 
power and gasoline bills under Lieberman-Warner.
    What are the long-term effects of going without heart 
medication, blood pressure medication, or pain medication? 
Fixed-income seniors under Lieberman-Warner will have to choose 
between paying their air conditioning bills to survive 
oppressive heat and rationing their medication.
    What are the health tradeoffs? How about low-income 
families? What are the long-term effects on nutrition? Higher 
heating and gasoline bills will force some families to choose 
whether to heat or eat? We saw that in Kansas City. Demand at 
food banks skyrocketed during our last recession and energy 
price run-up. Is not enough food good for health? Is not enough 
food good for childhood development?
    The amount of help for low-income families that will 
trickle down from Lieberman-Warner seems woefully inadequate. 
Initial estimates find us taking the allowances that bill 
provides times 18 percent for the number of allowances 
auctioned, times 20 percent for the number of auction 
allowances devoted to energy assistance, times 50 percent for 
the proceeds devoted to boost the LIHEAP program. Not 
surprisingly in a bill written by Northeasterners and East 
Coasters, supported primarily by Northeastern Coasters and West 
Coasters, they use a LIHEAP program formula which favors the 
Northeast in its heating problems.
    Unfortunately, Missouri's share of the LIHEAP program is 
only 2 percent, with no funds going to alleviate high summer 
air conditioning costs. That means that Missouri low-income 
families suffering with higher power bills will receive .02 
percent of the auction proceeds.
    Madam Chair, I ask that the remainder of my statement be 
included in the record, and I appreciate the opportunity to 
raise the concerns of my constituents.
    [The prepared statement of Senator Bond follows:]
 Statement of Christopher S. Bond, U.S. Senator from the State Missouri
    Madame Chairman, thank you for holding this hearing today on the 
health effects of climate change. While often the focus is on the size 
of ice caps, the number of glaciers or the health of polar bears, we 
also must focus on the health of our families. Witnesses and testimony 
today will focus on the health impacts of climate change, but something 
vital is still missing.
    The problem is, not a single witness is expected to speak a single 
word on the specific health effects resulting from implementation of 
the proposed Lieberman-Warner carbon bill. No one is asking, will the 
solution we consider inflict more harm upon the American people then 
the thing we are trying to avoid?
    It is hard to tell since the Committee will spend almost no time 
considering the details of the legislation it will mark up. As you 
know, several of us shared with you in a letter our severe misgivings 
about acting upon legislation which will have received almost no 
independent expert review or analysis.
    Given the chance, we might ask a health expert about the health 
effects on fixed-income seniors of going without prescription 
medication because they must instead pay for higher power and gasoline 
bills under Lieberman-Warner.
    What are the long term effects of going without heart medication, 
blood pressure medication, or pain medication? Fixed-income seniors 
under Lieberman-Warner will have to choose between paying their air 
conditioning bills to survive oppressive heat and rationing their 
medication. What are the health tradeoffs of that?
    How about low-income families? What are the long term health 
effects of poor nutrition? Higher heating and gasoline bills will force 
some families to chose whether to heat or eat. We saw that in Kansas 
City--demand at food banks sky-rocketed during our last recession and 
energy price runup. Is not enough food good for health? Is not enough 
food good for childhood development?
    The amount of help for low-income families that will trickle down 
from the Lieberman-Warner carbon auction scheme seems woefully 
inadequate. Initial estimates find us taking the allowances Lieberman-
Warner provides, times 18 percent for the number of allowances 
auctioned, times 20 percent for the number of auction allowances 
devoted to energy assistance, times 50 percent for the proceeds devoted 
to boost the LIHEAP program.
    Not surprisingly, in a bill written by Northeasterners and East 
Coasters supported primarily by Northeasterners and East Coasters, they 
use the LIHEAP program formula which favors the Northeast and its 
heating problems. Unfortunately, Missouri's share of the LIHEAP program 
is only 2.2 percent, with no funds going to alleviate high summer air 
conditioning bills.
    That means, after all that figuring including a carbon price at $20 
per ton, Missouri low-income families suffering with higher power bills 
will receive \2/10\ of a percent of the auction proceeds, or 
approximately $329 for each person in the Missouri LIHEAP program.
    There are a couple of other pathways for helping low-income 
families, such as the set-aside for states, but there is no guarantee 
that states will use their share on low-income relief or instead for 
other authorized activities such as energy efficiency.
    We also know that LIHEAP reaches only 1 in 6 families in need. Even 
if Lieberman-Warner proceeds double LIHEAP funding, 2 in 3 low-income 
families who cannot afford their energy bills now will be hit with even 
higher energy bills.
    A recent study found that low-income families such as those earning 
less than $16,000 per year under plans to reduce emissions by 15 
percent would face $750 to $1,000 in higher utilities bills. Of course, 
Lieberman-Warner wants to cut emissions by 70 percent. There are 
estimates out there saying this will cost several thousand dollars per 
family. How will a few hundred dollars in auction assistance funds make 
up for several thousand dollars in higher energy costs?
    And so I ask again, what will be the cost of hundreds or even 
thousands of dollars in lost medication? or lost meals? or lost winter 
nights with no heat? or lost summer days without air conditioning? 
These are some of the health effects questions I would like answered 
before we vote on this legislation. Thank you.

   Estimate of Lieberman-Warner Energy Assistance Funding for Missouri
------------------------------------------------------------------------
                                                              2012
------------------------------------------------------------------------
Total Allowances.....................................      5,200,000,000
  Sec. 1201(d), p. 30................................
Total Allowances Auctioned (18 percent in 2012)......        936,000,000
  Sec. 3201, p. 86...................................
Energy Assistance Allowances from Auction (20                187,200,000
 percent)............................................
  Sec. 4302(b)(2), p. 123............................
Energy Assistance Proceeds (at $20/ton)..............     $3,744,000,000
LIHEAP Portion of Energy Assistance Proceeds (50          $1,872,000,000
 percent)............................................
  Sec. 4501(1), p. 137...............................
MO Share of LIHEAP Proceeds (2.2 percent)............        $41,184,000
  ``The LIHEAP Investment'', 2/07, p.8...............
MO LIHEAP Recipients.................................            125,000
LIHEAP Energy Assistance Auction Proceeds............               $329
  per MO LIHEAP Recipient............................
------------------------------------------------------------------------


    Senator Boxer. Senator, and you have done that every time, 
which is good. I mean, I hope you will vote for LIHEAP when it 
comes up because I have a couple of----
    Senator Bond. [Remark made off microphone].
    Senator Boxer. Well, I have a couple of votes where you did 
not, but we will talk about it, but you bring it up every time, 
and I think it is important for you to look at the record here 
because I will work with you, absolutely.
    I think what is important here is to straighten the record 
out on a couple of points. Number one, thank you so much for 
your offer of help. It is so important right now for 
California. So I know we have differences on climate change, 
but there is no difference in helping each other when our 
States are in trouble.
    Right now, we are down 50 percent in terms of our National 
Guard equipment because they are all in Iraq, the equipment, 
half of the equipment. So we really will need help. I think all 
of our States are down in terms of equipment.
    Senator Bond. Well, Senator Leahy and I on the National 
Guard Caucus will welcome your help because the Guard has 
traditionally been underfunded when Iraq started, Katrina hit. 
The Guard had only one third of the equipment it needs, and 
this is a battle we fight with the Pentagon, and our colleagues 
have been most helpful.
    Senator Boxer. That is another area where we can work 
together. It think it is good for people to see it. I have 
joined your caucus several months ago, and I am really ready to 
go because we have a letter that states from the Pentagon 
themselves that if there is a real major catastrophe such as 
the one we are having now, we are really in some kind of 
trouble. So thank you very much for that.
    I also wanted to make sure everyone knows the schedule of 
hearings we are going to have before the bill Lieberman-Warner 
bill is marked up. We are going to have a hearing tomorrow on 
the Subcommittee level. Then we are going to have three 
hearings and two briefings before the Committee marks up the 
full bill.
    A lot of you have asked for that, and I agree with you 100 
percent. I think what is important is that we do look at our 
vulnerable populations and what Lieberman-Warner has in store 
as far as helping them. So this we will do for sure.
    I thank you very much again, everyone, for their kind 
offers and remarks.
    Senator Craig.

 STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR FROM THE STATE 
                            OF IDAHO

    Senator Craig. Madam Chairman, thank you, and thank you for 
what you have just said. A good number of us have approached 
you asking that we do a thorough examination of, with hearings 
on Lieberman-Warner, and it is important that we do so.
    Because I serve on the Forestry Committee and have chaired 
it over time and ranked there and spend a lot of time looking 
at fire, let me empathize with you and California for just a 
moment. Our Fire Center in Idaho has deployed all of its 
equipment to you, and just a moment ago I was handed a note 
that the evacuation number has gone up to 320,000. It is very 
real and very dramatic.
    I must tell you that we had one fire in Idaho this summer 
that was 600,000 acres. You are up to about 270,000 or 280,000 
now. There is a very real difference, though. There weren't any 
homes in the area.
    Senator Boxer. Right.
    Senator Craig. There weren't any people structures.
    But let me for just a moment talk about that because it is 
a part of what we ought be understanding when we look at the 
holistic approach to climate change. We burned about two 
million acres in Idaho this summer, the worst fire season we 
have had in decades. Nationwide, it is, with the fires now 
burning in California both in human structure loss and life 
loss and acreage burned, it may be worse than last year.
    But Madam Chairman, here is an interesting statistic. When 
Senator Feinstein and I crafted Healthy Forests, you supported 
it, and I appreciate that a great deal. But because of the 
courts today, we are ineffective in doing the kind of urban 
wild-land interface cleaning that we should. In Southern 
California where the scrub oak grows rapidly and the thinning 
and the cleaning ought to occur, it hasn't for a lot of 
reasons, mostly environmental concerns by some special interest 
groups.
    But here is an interesting statistic. If no public land 
fires had occurred in the United States this year, from a 
standpoint of carbon released into the atmosphere and 
greenhouse gases released into the atmosphere, it would have 
been equivalent to taking 12 million automobiles off the road.
    Now, let's get real with ourselves. While we charge into 
the unknown, with legitimate concern, there are some known 
things we ought to be doing, and one of those areas is forest 
health. What happened in San Francisco on October 20 when we 
talked about the need to produce clean energy? The light got 
turned off for an hour. Is that the way we are going to solve 
our problems in the future with energy needs is simply turn off 
the lights?
    I think Americans have spoken pretty clearly to that. In a 
communicative world which is extremely energy intensive today, 
I doubt we will be able to do that.
    So for just a few moments, let me talk about four important 
principles that we ought to be incorporating in climate change, 
and I will spend a lot more time with Lieberman-Warner in doing 
that.
    Senator Boxer. Senator, you have 40 seconds left. We are 
really going to try to get through.
    Senator Craig. I will not err on the side of 40 seconds.
    Let me suggest, though, that the New York Times recognized 
the goals of Lieberman and Warner, and said that they were 
impossible to achieve without nuclear power. I find it 
interesting that the 1970s rock relics are headed to the Hill 
today to talk about their anti-nuclear musician position. I 
find it interesting that we can't even get over the hurdles of 
the 1970s with the new technologies of today in our desire to 
create a cleaner world.
    There is a combination of a lot of things happening out 
there, Madam Chairman, but right now in a very tragic and real 
way, as Idaho during August and September contributed to huge 
volumes of carbon into the atmosphere, California is now 
contributing in an unprecedented way, and that is tragic. We 
ought to be spending a lot of time looking at the broad cross-
section of issues.
    I ask unanimous consent that the balance of my statement be 
a part of the record.
    Senator Boxer. Of course it will be.
    Yes, the tragedy is the uncontrollable and unavoidable 
costs of these fires. Some of them actually could be stopped 
before they start because a lot of them are started by 
arsonists, as you know. They do contribute to the problem of 
global warming and that is why we have to be so careful, 
because even the steps we take may not be enough because of 
these other things.
    Well, I want to welcome Dr. Gerberding here because I just 
want to praise your agency and this Administration for 
understanding that we already do know some things about what is 
happening out there with Global Warming and you are getting 
ready for it, and you don't view it as charging into the 
unknown, not after reading your statement.
    So could you please take 5 minutes and then we will ask you 
some questions.

  STATEMENT OF JULIE LOUISE GERBERDING, DIRECTOR, CENTERS FOR 
DISEASE CONTROL AND PREVENTION ACCOMPANIED BY: HOWARD FRUMKIN, 
 DIRECTOR, NATIONAL CENTER FOR ENVIRONMENTAL HEALTH AGENCY FOR 
             TOXIC SUBSTANCES AND DISEASE REGISTRY

    Dr. Gerberding. Thank you.
    It really is an honor to appear here. I must say I agree 
with what everyone has said this morning at the introductory 
level. I was in San Francisco at 8 o'clock on Saturday night 
and I found that hour of darkness to be very sobering and 
really a wonderful prelude to this hearing.
    I have a graphic here to just remind you that while we are 
dealing with an extreme weather event in California, and indeed 
it is tragic, there are extreme weather events going on 
elsewhere in the Country including the drought in the Southeast 
that is affecting Atlanta, and the flooding in New Orleans 
today. So we are in an environment where increasingly CDC and 
other public health agencies are being asked to respond and 
prepare for these kinds of extreme events.
    We need to do this in an environment of trying to change 
from really a climate of uncertainty to a climate of 
preparedness, preemption and planning. In order for that to 
happen, we do need to have some anticipatory understanding of 
what might be in store for us.
    These are potential consequences of climate change that 
have been proposed by many, including scientists. These are 
recapitulated by the World Health Organization and the other UN 
organizations. But I think what is important here is that there 
are things here that we can reliably say we know will happen. 
There are things that are here that might happen, that we have 
some uncertainties about. And then there are things here that 
we just simply can't predict.
    The one thing that I think is irrefutable is the fact that 
weather is inextricably linked to health. We see that in the 
kinds of weather events that occur every day. We see it 
seasonally with the relationship to influenza. We see it over 
years in the consequence of things like El Nino. I believe we 
will see this on a much longer time frame in the context of our 
changing climate.
    So if we accept the fact that there is an important 
relationship between health and climate, then we need to 
concentrate on how we go about identifying what we can 
understand, predict, preempt, and prepare for.
    One area where I think we have made the most progress is 
understanding how we would prepare for heat events. The 
catastrophe that occurred in Europe in 2003 should never happen 
again. Somewhere between 25,000 and 44,000 people were 
attributed to die from that terrible heat event. That, in this 
world in developed countries, should never be the case.
    I am proud to say that the Environmental Protection Agency, 
together with FEMA, NOAA and CDC, have worked together in an 
interdependent manner to produce this guidance on how to avoid 
the consequences of excessive heat events. I think this is the 
kind of model for what needs to happen in government. We need 
to come together, bring our best science, collaborate on 
finding sensible solutions that are science-based, and if we 
don't have the science, to at least concentrate on using some 
common sense.
    There is an important role for public health and for CDC in 
all of this. On this graphic, which I think you have in hand, I 
have listed many of the things that CDC and its public health 
partners in State and local governments would be responsible 
for doing. I would like to highlight those areas that I think 
are the most relevant for conversation today.
    One of those areas is the issue of health protection 
research. There is tragedy in not knowing what to do. We need 
to do the science to try to understand better the range of 
issues that may emerge with climate change. But an even greater 
tragedy is not doing what we know. I think we have plenty of 
examples there, where we need to apply the science and the 
knowledge that we do have in more creative ways.
    CDC has two centers that are especially involved in this 
issue. One is our National Center for Environmental Health, and 
Dr. Howard Frumkin is sitting behind me who directs that 
Center. The other is our new center, the National Center for 
Zoonotic and Vector-Borne Diseases. Dr. Ali Khan is the Deputy 
of that Center. That Center is based on the premise that 
ecological infectious diseases are in our future for a number 
of reasons, including climate change, and the kind of health 
protection research that CDC needs to do in collaboration with 
its other partners really needs to focus in on these areas.
    We have the infrastructure to make this happen. This is a 
graphic of some of our new laboratories, not just in Atlanta, 
but also in Puerto Rico and in Colorado, where this kind of 
science is being conducted today. I think we have a lot to 
contribute. We just need to bring everyone together, create an 
agenda, and forge ahead on solving some of these problems.
    So I look forward to your questions, and again really 
appreciate the opportunity to shine a light on the health 
consequences of climate change.
    Thank you.
    [The prepared statement of Dr. Gerberding follows:]
 Statement of Julie L. Gerberding, M.D., M.P.H., Director, Centers for 
    Disease Control and Prevention, Administrator, Agency for Toxic 
 Substances and Disease Registry, U.S. Department of Health and Human 
                                Services
                              introduction
    Good morning Madam Chairwoman, Senator Inhofe, and other 
distinguished members of the Committee. It is a pleasure to appear 
before you as Director of the Centers for Disease Control and 
Prevention (CDC), the Nation's leading public health protection agency 
located within the Department of Health and Human Services. Thank you 
for the opportunity to present on climate change and human health and 
to highlight the role of CDC in preparing for and responding to the 
health effects of climate change.
                               background
    The health of all individuals is influenced by the health of 
people, animals, and the environment around us. Many trends within this 
larger, interdependent ecologic system influence public health on a 
global scale, including climate change. The public health response to 
such trends requires a holistic understanding of disease and the 
various external factors influencing public health. It is within this 
larger context where the greatest challenges and opportunities for 
protecting and promoting public health occur.
             public health preparedness for climate change
    Climate change is anticipated to have a broad range of impacts on 
the health of Americans and the nation's public health infrastructure. 
As the nation's public health agency, CDC is uniquely poised to lead 
efforts to anticipate and respond to the health effects of climate 
change. Preparedness for the health consequences of climate change 
aligns with traditional public health contributions, and--like 
preparedness for terrorism and pandemic influenza--reinforces the 
importance of a strong public health infrastructure. CDC's expertise 
and programs in the following areas provide the strong platform needed:
    <bullet> Environmental Public Health Tracking--.CDC has a long 
history of tracking occurrence and trends in diseases and health 
outcomes. CDC is pioneering new ways to understand the impacts of 
environmental hazards on people's health. For example, CDC's 
Environmental Public Health Tracking Program has funded several states 
to build a health surveillance system that integrates environmental 
exposures and human health outcomes. This system, the Tracking Network, 
will go live in 2008, providing information on how health is affected 
by environmental hazards. The Tracking Network will contain critical 
data on the incidence, trends, and potential outbreaks of diseases, 
including those affected by climate change.
    <bullet> Surveillance of Water-borne, Food-borne, Vector-borne, and 
Zoonotic Diseases.--CDC also has a long history of surveillance of 
infectious, zoonotic, and vector-borne diseases. Preparing for climate 
change will involve working closely with state and local partners to 
document whether potential changes in climate have an impact on 
infectious and other diseases and to use this information to help 
protect Americans from the potential change in of a variety of 
dangerous water-borne, food-borne, vector-borne, and zoonotic diseases. 
CDC has developed ArboNet, the national arthropod-borne viral disease 
tracking system. Currently, this system supports the nationwide West 
Nile virus surveillance system that links all 50 states and four large 
metropolitan areas to a central database that records and maps cases in 
humans and animals and would detect changes in real-time in the 
distribution and prevalence of cases of arthropod-borne viral diseases. 
CDC also supports the major foodborne surveillance and investigative 
networks of FoodNet and PulseNet which rapidly identify and provide 
detailed data on cases of foodborne illnesses, on the organisms that 
cause them, and on the foods that are the sources of infection. Altered 
weather patterns resulting from climate change may affect the 
distribution and incidence of food- and water-borne diseases, and these 
changes can be identified and tracked through PulseNet.
    <bullet> Geographic Information System (GIS).--At the CDC, GIS 
technology has been applied in unique and powerful ways to a variety of 
public health issues. It has been used in data collection, mapping, and 
communication to respond to issues as wide-ranging and varied as the 
World Trade Center collapse, avian flu, SARS, and Rift Valley fever. In 
addition, GIS technology was used to map issues of importance during 
the CDC response to Hurricane Katrina. This technology represents an 
additional tool for the public health response to climate change.
    <bullet> Modeling.--Model projections of future climate change can 
be used as inputs into models that assess the impact of climate change 
on public health. CDC has conducted heat stroke modeling for the city 
of Philadelphia to predict the most vulnerable populations at risk for 
hyperthermia. In light of these projections, CDC has initiated efforts 
to model the impact of heat waves on urban populations to identify 
those people most vulnerable to hyperthermia.
    <bullet> Preparedness Planning.--Just as we prepare for terrorism 
and pandemic influenza, we should use these principles and prepare for 
health impacts from climate change. For example, to respond to the 
multiple threats posed by heat waves, the urban environment, and 
climate change, CDC scientists have focused prevention efforts on 
developing tools that local emergency planners and decision-makers can 
use to prepare for and respond to heat waves. In collaboration with 
other Federal partners, CDC participated in the development of an 
Excessive Heat Events Guidebook, which provides a comprehensive set of 
guiding principle and a menu of options for cities and localities to 
use in the development of Heat Response Plans. These plans clearly 
define specific roles and responsibilities of government and non-
governmental organizations during heat waves. They identify local 
populations at increased high risk for heat-related illness and death 
and determine which strategies will be used to reach them during heat 
emergencies.
    <bullet> Training and Education of Public Health Professionals.--
Preparing for the health consequences of climate change requires that 
professionals have the skills required to conceptualize the impending 
threats, integrate a wide variety of public health and other data in 
surveillance activities, work closely with other agencies and sectors, 
and provide effective health communication for vulnerable populations 
regarding the evolving threat of climate change. CDC is holding a 
series of five workshops to further explore key dimensions of climate 
change and public health, including drinking water, heat waves, health 
communication, vector-borne illness, and vulnerable populations.
    <bullet> Health Protection Research.--CDC can promote research to 
further elucidate the specific relationships between climate change and 
various health outcomes, including predictive models and evaluations of 
interventions. Research efforts can also identify the magnitude of 
health effects and populations at greatest risk. For example, CDC has 
conducted research on the relationship between hantavirus pulmonary 
syndrome and rainfall, as well as research assessing the impact of 
climate variability and climate change on temperature-related morbidity 
and mortality. This information will help enable public health action 
to be targeted and will help determine the best methods of 
communicating risk. CDC can serve as a credible source of information 
on health risks and actions that individuals can take to reduce their 
risk. In addition, CDC has several state-of-the-art laboratories 
conducting research on such issues as chemicals and human exposure, 
radiological testing, and infectious diseases. This research capacity 
is an asset in working to more fully understand the health consequences 
of climate change.
    <bullet> Communication.--CDC has expertise in communicating to the 
general public health and risk information, and has deployed this 
expertise in areas as diverse as smoking, HIV infection, and cancer 
screening. Effective communication can alert the public to health risks 
associated with climate change, and encourage constructive protective 
behaviors.
    While CDC can offer technical support and expertise in these and 
other activities, much of this work needs to be carried out at the 
state and local level. For example, CDC can support climate change 
preparedness activities in public health agencies, and climate change 
and health research in universities, as is currently practiced for a 
variety of other health challenges.
                               conclusion
    An effective public health response to climate change can prevent 
injuries, illnesses, and death and enhance overall public health 
preparedness. Protecting Americans from adverse health effects of 
climate change directly correlates to CDC's four overarching Health 
Protection Goals of Healthy People in Every Stage of Life, Healthy 
People in Healthy Places, People Prepared for Emerging Health Threats, 
and Healthy People in a Healthy World.
    While we still need more focus and emphasis on public health 
preparedness for climate change, many of our existing programs and 
scientific expertise provide a solid foundation to move forward. Many 
of the activities needed to protect Americans from adverse health 
effects of climate change are mutually beneficial for overall public 
health. In addition, health and the environment are closely linked. 
Because of this linkage it is also important that potential health 
effects of environmental solutions be fully considered.
    Thank you again for the opportunity to provide this testimony on 
the potential health effects of global climate change and for your 
continued support of CDC's essential public health work.
[GRAPHIC] [TIFF OMITTED] T3578.001

    Senator Boxer. Thank you very much, Doctor.
    You know, one of my colleagues, I think it was Senator 
Barrasso, said we have so many other issues--kids have to 
exercise, they have to watch their weight. I guess the 
implication is why look at this.
    First of all, my own answer to his rhetorical comment, I am 
sure he didn't want me to answer it, is if we wait we could 
waste valuable time and people could be severely injured as a 
result.
    The other thing is, you know, we tell our kids it is really 
important to exercise, to eat properly. Well, here is a kid who 
went into Lake Havasu and he went swimming. Kids are supposed 
to do that to stay healthy. I would assume, Senator Barrasso, 
you would agree with that. Well, what happened was he wound up 
in the hospital. It seemed like a headache, nothing more, but 
when painkillers and a trip to the emergency room didn't fix 
it, Aaron Evans, the 14-year-old, asked his dad if he was going 
to die. Oh, no, and then his father said, I come home and I am 
burying him.
    Well, what happened is Aaron was exposed to an amoeba, a 
microscopic organism, and I don't pronounce it correctly, 
called naeglaria fowleri. Did I say that right?
    Dr. Gerberding. Well, I usually say naeglaria.
    Senator Boxer. Naeglaria fowleri.
    Dr. Gerberding. Fowleri.
    Senator Boxer. It attacks the body through the nasal 
cavity, quickly eating its way to the brain. The doctors said 
he probably picked it up a week before while swimming in Lake 
Havasu. They said such attacks are rare, though some health 
officials have put their communities on high alert, telling 
people to stay away from warm--warm--standing water.
    Now, Michael Beach, who works in your shop, he is a 
specialist in recreational water-borne illness for the Centers 
for Disease Control and Prevention, said, ``This is definitely 
something we need to track. This is a heat-loving amoeba. As 
water temperatures go up, it does better. In future decades as 
temperatures rise, we better expect to see more cases.''
    Do you agree with those comments?
    Dr. Gerberding. Well, I think what I agree with is that we 
need to find out the answer, and there are ways of monitoring 
for this organism and understanding how it does respond to the 
various changes in water temperature and other climatic 
effects, including salinity and the flocculants in the water.
    Right now, this is a rare disease, but it is exactly the 
kind of thing that we are here to talk about. What are the 
uncertainties and where can we apply our knowledge to decrease 
some of the uncertainty as we look forward to ecological 
changes?
    Senator Boxer. Now, Texas health officials are acting now. 
They are not waiting. They have issued a news release about the 
danger of amoeba attacks, telling people to be cautious around 
water. Are you doing anything at this stage at CDC?
    Dr. Gerberding. There are a number of things that we are 
doing related to water per se. This particular organism is a 
tiny part of the overall issue of water and health and climate 
change.
    We anticipate many consequences of water. One of the 
exciting things that we are beginning to be able to do in 2008 
is the tracking project, where we can relate climate to health 
outcomes, both chronic diseases that I know were already 
mentioned as an important here and now problem, but also 
potential future diseases that will emerge or re-emerge in this 
context.
    Senator Boxer. Dr. Gerberding, I have a presentation by 
Michael McGeehan from the National Center for Environmental 
Health at CDC. Could we hold up that chart that says potential 
impacts? I just wonder if you agree with this. What he does is 
he shows heat, storms, coastal flooding, vector biology, air 
pollutants, food supply, civil conflict. Do you agree with this 
presentation, if global warming were to occur and we were not 
able to lessen its impact? Do you agree with that, that these 
are some of the problems that we could see on the orange?
    Dr. Gerberding. Absolutely. This is a list of potential 
things that you could realistically expect, and these are the 
areas where we want to focus our attention in terms of the 
ecological science, as well as the ability to predict and model 
where the events may occur.
    I don't think in some of these areas it is a question of 
if. It is a question of who, what, where, when, how and how bad 
it will be.
    Senator Boxer. Yes. Well, obviously, yes. A lot of us are 
trying to stop the worst effects by acting. A lot of others are 
putting their head in the sand and saying, oh, let's 
concentrate on our other problems; we can't even deal with 
those. I think we have to do both as Senators. You can't close 
your eyes to the future, and you can't close your eyes to the 
present.
    Senator Barrasso, 4 minutes please.
    Senator Barrasso. Thank you very much, Madam Chairman.
    I think this is a tragic case that you reflected upon. I 
think my initial comments talked about trying to find a balance 
of how we do the best we can today, and also trying to protect 
into the future, which I was so glad to hear about the 
organization within the Centers for Disease Control and 
Prevention, this health protection research effort that is 
going on and what we can do there.
    I was just reading an article in Investors Business Daily, 
and this comes to try to find this balance. This was last week. 
It talks about Dr. William Gray, professor emeritus of the 
Atmospheric Department at Colorado State University. In the 
article, it says they found that $1 spent fighting HIV-AIDS 
produces $40 in social benefits; $1 spent in fighting 
malnutrition yields $30 in social benefits; but $1 fighting to 
lower CO<INF>2</INF> emissions yielded between 2 cents to 25 
cents in benefits. It is trying to find that balance.
    I want to know if you have any comments on how we can best 
use our limited resources?
    Dr. Gerberding. I am a scientist, not an economist. But I 
just read the Harvard Business Review this week from the 
October edition where they are presenting the issue of climate 
change to the corporate international communities, and really 
making a very strong business case that it is not just an issue 
of corporate social responsibility or philanthropy anymore. It 
is an issue of corporate survival and economic security for 
businesses.
    So I think the broad dimension of sustainability and 
climate change and their intersection are things that we need 
to look at. I hope in the hearings and the debates that go on 
about various legislation this will be an area that will come 
up.
    As a public health official, I am always balancing the need 
to take care emerging or urgent reality today, and the need to 
do things like plan for pandemics or the health consequences of 
climate change. I think we have to be able to do both, but 
getting that responsible balance is part of what needs to be a 
very open debate. I agree that it should be a debate.
    Senator Barrasso. And then the other question is, we hear 
about the tragedy of what happened in Europe in the heat wave 
and all of those who perished. And then one reads reports that 
with any change in temperature, a degree rise or two, there are 
reports of the number of lives that have been saved by not 
having the cold impact and the deaths that are caused by cold 
and the cardiovascular impacts of the extreme cold. Any 
comments on that?
    Dr. Gerberding. There is better science now relating 
temperature and mortality rates, including a very large study 
done in the United States where this was looked at 
geographically and by various population subsets.
    I think one of the things to say to help put the European 
experience in perspective that in none of that climate tracking 
data that went on over a long period of time was there ever an 
event where 25,000 people died from a winter storm. So what we 
are dealing with is not just the gradual increments in 
temperature that may be offset by less cold and more heat, but 
also these extreme events which are devastating, particularly 
to vulnerable people in our population.
    So you have to look at the total impact, not just the 
stable reflection of temperature and health status. I think 
there is a lot of uncertainty there, and we need to really be 
looking at the past climate and anticipating what it means in 
terms of the future, and what we are seeing happening right now 
today in the United States.
    Senator Barrasso. Thank you very much. No further 
questions.
    Senator Boxer. Thank you, Senator.
    Senator Cardin, 4 minutes. We welcome you.

  STATEMENT OF HON. BENJAMIN L. CARDIN, U.S. SENATOR FROM THE 
                       STATE OF MARYLAND

    Senator Cardin. Thank you, Chairman Boxer. I very much 
appreciate you holding this hearing. I think it is very 
important that this Committee explore the health impacts of 
global climate change. I would ask that my entire opening 
statement be made part of the record.
    Senator Boxer. Without objection.
    [The prepared statement of Senator Cardin follows:]
      Statement of Hon. Benjamin L. Cardin, U.S. Senator from the 
                           State of Maryland
    Madame Chairman: Thank you for holding this hearing today.
    As the National Academies of Science noted just last month, ``Our 
understanding of the impact of climate changes on human well-being and 
vulnerabilities is much less developed than our understanding of the 
natural climate system.'' Our current level of information gives us 
cause for grave concern. And common sense suggests that even greater 
health impacts are coming.
    The extreme weather events that are expected to be among the first 
effects of global warming clearly present serious threats to human 
health and safety. And those events don't have to be as immediate as a 
deadly hurricane or tornado. They can also be prolonged periods of 
extreme heat, leading to the premature deaths of our most vulnerable 
citizens including the elderly.
    Increases in global warming are also likely to result in increased 
levels of smog, which is a function of chemical pollution reacting in 
the presence of strong summer heat. Today more than 90 percent of all 
Marylanders live in ozone non-attainment areas. Global warming 
threatens progress being made on improving those numbers. The World 
Health Organization is predicting a 60 percent increase in ozone 
pollution in the eastern United States by 2050.
    Algal blooms could occur more frequently as temperatures warm--
particularly in areas with polluted water. Diseases that tend to 
accompany algal blooms could become more frequent. These are adverse 
health effects that are already upon us. Global warming will simply 
make them worse.
    And that is just the beginning of the story. My greatest concerns 
are not about the health effects on Marylanders or even Americans. My 
greatest concerns have to do with the potential for widespread disease 
and dislocation that might accompany global warming in unstable parts 
of the world. Prolonged droughts can be expected to result in the 
spread of contagious diseases that will result from more people trying 
to use a declining water supply. The health impacts of global warming 
need to be more fully documented. We need better predictive models that 
can help us understand the likely health impacts of global warming in 
different parts of the world. We need better coordination among climate 
scientists, world health providers, and our national security and State 
Department officials.
    Today's hearing is an especially timely one. We are starting to see 
the truly global health impacts associated with global climate change. 
Today's hearing should help us understand the current state of our 
knowledge. Today's hearing should also provide constructive ways in 
which we can better monitor, plan and protect our citizens and those 
around the world in future years.
    I look forward to hearing from today's witnesses.
    Thank you, Madame Chairman.

    Senator Cardin. Let me say, I could concentrate on the 
impact on my State of Maryland, the sea level changes and the 
impact that are going to have on health; the change of water 
temperature, which has an incredible impact on the environment 
in the State of Maryland.
    I want to follow up on Senator Boxer's question on the 
global effects of climate change, whether it is heat or whether 
it is dealing with some of the changes of population, or 
whether it deals with the potential food supply or extreme 
weather conditions, and ask you whether there are efforts 
internationally which CDC is part of to try to get a common 
understanding of what is happening, so that we can develop an 
international strategy to deal with the potential changes of 
food supply, of population, of all those other issues that 
could have a major impact on the entire world, and whether CDC 
is playing a role in trying to get that type of collaboration 
internationally.
    Dr. Gerberding. We are playing a role. One specific example 
would relate to the President's Malaria Initiative where we are 
out trying to implement a program to reduce the deaths due to 
malaria by 50 percent. As part of that, of course, we are 
tracking malaria and will learn a lot about the effectiveness 
of our programs, as well as hopefully the influence of climate.
    But I would say right now today, other than some 
collaborative work we are doing in conjunction with the World 
Health Organization, we are not really exhibiting leadership 
and doing as much as we should be doing. I think it is time for 
us to step forward and do some convening around these issues, 
and really contribute to an international agenda.
    The World Health Organization has created a platform for 
the global health consequences of climate change, and there are 
some very specific goals and objectives in there that CDC 
really should and could contribute a great deal to.
    One of the areas where we excel is in the area of 
surveillance, and our ability to relate human health issues 
with data that is being collected by other climate scientists 
and other agencies in other parts of the world is really a 
unique contribution that I think we can leverage things we are 
already doing quite well.
    Another very important asset that we have is our ability to 
communicate. We have a Web site that was just voted the number 
one health Web site in the Nation. We are trying to globalize 
it so that it is more relevant and more reachable in other 
places that might want to be able to use our shared 
information.
    So there are some specific things that we could do better 
right now, and then there are some things we would like to be 
able to do in the future.
    Senator Cardin. Well, I applaud you for your Web site. I 
expect that it is not only one of the top in our Country, but 
probably top in the world. CDC is looked upon internationally. 
I must tell you, at international meetings frequently CDC is 
mentioned as a standard that is important for the entire world.
    Moving on malaria is important and I appreciate the 
leadership that you are applying there, and as you acknowledge, 
I think there is more that an organization such as CDC can do 
to sensitize the international community that we are all in 
this together. Malaria is important to attack internationally, 
as are other issues including perhaps change in food supply as 
a result of what is happening with global climate change, or 
dealing with sea level increases and what impact that is going 
to have internationally on concerns that we all share.
    So I just would urge you to be as aggressive as you can on 
individual issues, individual health issues that are affected 
by climate change. But to start to develop the protocols that 
we are working in a more aggressive way so we have a common set 
of models that we can use so that we all can work together, 
rather than just one country dealing with it.
    Thank you, Madam Chair.
    Senator Boxer. Thank you, Senator.
    The reason I am moving it along is we may have a vote as 
early as 11-ish.
    So Senator Craig, go ahead.
    Senator Craig. Madam Chairman, thank you very much.
    I am not one of those who would suggest we ought to wait, 
because I think information and knowledge is power. And let me 
say, Dr. Gerberding, I will join with Senator Cardin in 
recognizing your Web site and the work you do.
    Knowledge is power, and a lot of people don't have the 
knowledge to make the decisions they could make that are 
relatively practical that improve health situations. For 
example, we all know about this new superbug, MRSA. And yet on 
your Web site, you are very practical. It probably saves lives. 
It is wash your hands, shower after exercise, cover skin 
traumas with a bandage, don't share razors, and keep surfaces 
clean.
    We are all creatures of habit, and habits are what we 
respond to daily. We don't want to change our habits unless we 
are forced to, or unless knowledge tells us we ought to. One of 
the things that you can do and you are doing is to be able to 
spread that practical knowledge that will change habits and 
normal everyday actions. So I don't think we ought to wait at 
all, Madam Chairman, on information and flow and understanding 
and sharing.
    At a climate change conference in The Hague a good number 
of years ago, I got into an interesting debate with a professor 
from Bangladesh about sea rise. To him, it was a very practical 
problem. If the sea rises at all, his country is eliminated. It 
doesn't exist anymore. His people would simply have to pack up 
and leave, an entire nation, albeit small, but we know 
tremendously populated. A little different in the State of 
Maryland, with impacts, you bet. Real? You bet. But Maryland 
probably, with a few feet, doesn't disappear. Some of it might, 
but Bangladesh would. So it is a matter of perspective, and it 
is also a matter of reality.
    One of the things I find out, Madam Chairman, when we talk 
about energy conservation, most people don't understand how to 
conserve, but if they are given a practical list of things they 
can do as a family, as a small economic unit in a large 
economic unit, it is amazing the kinds of savings that can 
occur if there are simply one or two less trips to the 
supermarket every week, because they organized a shopping list 
and went once instead of three times. Practical? Yes. Do they 
need to be instructed in it? In most instances, yes.
    So while we are wrestling with the bigger issues and your 
work sometimes can be very practical, it becomes phenomenally 
important and it does save lives, and I want to thank you for 
the work you do.
    Let me also react, and I think that Senator Barrasso 
touched on it, I think all of us were shocked by the number of 
deaths in Europe when that heat wave occurred. For those of us 
who have traveled in Europe, we find it interesting that there 
aren't any air conditioners. We have grown to know that they 
are just in every home in America today almost, but it is a 
cool area of the world and they never felt they needed it.
    But I have seen studies that would suggest cold or a 
substantially colder temperature would produce a good deal more 
deaths and is more difficult to adjust to than heat. Are there 
any studies, or have you looked at that at the CDC to draw any 
conclusions about it?
    Dr. Gerberding. I think there have been some very excellent 
initial work that EPA has funded through some academic 
environments that are trying to understand this more clearly. 
One of the interesting observations is that the effect of 
temperature depends on what you are used to. So if you are used 
to living in a cold temperature, you are more tolerant of more 
cold, but less tolerant of more heat. If you are used to living 
in a warmer temperature, you have a harder time with cold, but 
you do a little bit better with the extremes of heat. So our 
biology and our ecology really intersect in some very 
interesting ways there.
    What we don't know yet, other than the fact that these are 
particular problems for the elderly primarily because of the 
cardiovascular stress, we don't really know what the sub-
population issues are. So there is a great deal more that will 
be learned through this kind of research.
    Senator Craig. Thank you.
    Senator Boxer. Thank you, Senator.
    Senator Craig. Thank you, Madam Chairman.
    Senator Boxer. Senator Whitehouse, 4 minutes please.

  STATEMENT OF HON. SHELDON WHITEHOUSE, U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Madam Chair.
    May I ask unanimous consent that my opening statement be 
put at the appropriate place in the record?
    Thank you.
    [The prepared statement of Senator Whitehouse follows:]
      Statement of Hon. Sheldon Whitehouse, U.S. Senator from the 
                         State of Rhode Island
    Madam Chairman, thank you for holding this important hearing today 
on the growing impact of global climate change on human health. I'm 
proud that our chairman has worked hard to move us past a debate over 
whether global warming in fact exists--as all scientists and the 
American people do not doubt that it does--and onto the critical 
question of what we do next.
    As our chairman and many of my colleagues know, the solution to 
climate change cannot be limited to reducing the pollutants that caused 
it. That will help--but it's too late to ignore the need for a more 
comprehensive approach that considers global warming's impact on our 
environment, our wildlife, on every aspect of our society--and 
particularly on ourselves.
    The threats to public health from global warming affect us all, and 
will continue to worsen the longer we delay speedy action to limit 
global warming pollution in the United States and around the world. 
Unfortunately, those who will bear the greatest burden are those least 
able to protect themselves, including our children, the elderly, and 
those without access to adequate medical care. I applaud the chairman 
for highlighting this important topic and look forward to working with 
her and my colleagues on the committee to pass strong legislation to 
significantly reduce our nation's contribution to global climate 
change.
    We have already begun to see the effects of climate change on our 
health. Unfortunately, the degree of warming we have already 
experienced today is only a fraction of what we can expect in the 
future without decisive action to improve the quality of our air and 
water. Warmer temperatures stemming from rising levels of global 
warming pollution in the air have already been linked to increased 
``red alert'' days in our cities from unhealthy levels of smog, and a 
resulting increase in asthma and other respiratory illnesses, 
especially in our youth and elderly. A recent report by researchers at 
Yale University concluded that many U.S. cities could see a doubling of 
unhealthy ozone days if global warming pollution is left unchecked. 
Such a change would have a far-reaching ripple effect on our quality of 
life, as fewer children and seniors could take part in outdoor 
recreation and other activities, and on our economy as well.
    I am particularly troubled by the impact on our children, because 
they are not only one of the most vulnerable segments of our 
population, but because it is they who will have to live with the 
myriad of consequences from a warming world in the future. The 
environmental ministers from the G-8 nations emphasized this point in a 
unanimously approved declaration on children's environmental health, 
stating that ``Children will be among the most susceptible to more 
severe heat waves, more intense air pollution, and the spread of 
infectious diseases. Future generations will face many potential 
impacts of climate change with serious health, environmental and 
economic consequences.''
    Before joining the Senate I was proud to serve on the board of 
Creating Healthy Environments for Children, now known as Healthy Child 
Healthy World, a group dedicated to protecting our children from 
harmful environmental threats. Their work is so important, but the 
federal government should be at the forefront of these efforts. 
Wherever possible, as we conduct further research on the effects of 
greenhouse gas emissions and set policy regarding pollutant cuts, we 
should take special care to consider the impact on children.
    Increases in unhealthy ozone and smog, however, are not the only 
dangers we face. Rising temperatures are also beginning to change 
disease patterns. Diseases carried by ticks and mosquitoes are 
spreading into new areas and scientists have warned that epidemics such 
as dengue fever and malaria may reemerge in the United States. If we 
allow this to continue the strain on our already overburdened public 
health system could be devastating.
    Instances of extreme weather are also increasing and leading to 
more severe floods, storms, and extended heat and cold waves. We have 
seen the havoc wreaked by hurricanes Rita and Katrina on the homes, 
lives, and mental and physical health of the residents of the Gulf 
Coast--devastation they continue to fight and overcome today. Left 
unchecked, climate change will result in future storms of this 
magnitude for which we continue to be unprepared.
    Madam Chairwoman, I am dedicating to working with you to address 
these challenges now, before they become worse. We have an obligation 
to respond to the overwhelming facts and scientific evidence pointing 
toward the need to take aggressive action now to limit the impact of 
global warming on our environment, our economy, and the health of our 
people.

    Senator Whitehouse. Doctor, I serve also on the 
Intelligence Committee. We spend a great deal of time looking 
at national security issues. I was wondering if you would mind 
talking a little bit about global warming and climate change in 
the context of United States national security, both in terms 
of direct impacts occurring within the geographic United 
States, and also indirect impacts from consequences that 
physically occur in other nations, but have ramifications for 
U.S. national security.
    Dr. Gerberding. I think I can address this generically and 
perhaps in more detail in another environment.
    Senator Whitehouse. Since we have 3 minutes and 10 seconds, 
I think we have to do it pretty generically here.
    Dr. Gerberding. I would say that, first of all, the two 
large areas where this would be most relevant are in the areas 
of food security and water security, because obviously the 
kinds of social disruption and the economic harms that can come 
about if those problems emerge in a particular location add to 
other factors that initiate ideologic conflict and/or other 
kinds of strife.
    So we are mindful of the intersection between health, 
security and economics, and all we have to do is look at SARS 
to understand what a tremendous problem that one infectious 
disease outbreak really created. So it is a very interdependent 
process, and there absolutely are important security concerns 
that we can certainly speculate about and talk offline.
    Senator Whitehouse. Good. I appreciate it.
    Senator Boxer. Thank you, sir. Thank you.
    Well, you know, we are going to move on to our next panel, 
but I just have to say, Dr. Gerberding, that I found your 
presentation extremely important. I found your testimony very 
powerful. You are not into the politics of this. You are into 
helping people, and I think what you said today is very 
important. It is devoid of politics. What you are telling us is 
we better get ready for this and we better get ready for this 
now. I appreciate it very, very much. Thank you.
    Dr. Gerberding. Thank you. I appreciate the opportunity to 
be here and also to make a case for getting the science. I 
think that is exactly where we need to go. Thank you.
    Senator Boxer. Absolutely. Thank you very much.
    And now we are pleased to invite our next panel up. We have 
Dr. Michael McCally, M.D., Ph.D., Executive Director, 
Physicians for Social Responsibility; Susan Cooper, MSN, RN, 
Commissioner, Tennessee Department of Health; and Dr. Don 
Roberts, Professor Emeritus, Uniformed Services University of 
the Health Sciences.
    We welcome you. It is my intent to move you along. We will 
give you 5 minutes. If you can go 4, that gives us more time 
for questions because we are going to have to stop this whole 
hearing because we think we have four votes in a row.
    So let's get started. Dr. McCally, Physicians for Social 
Responsibility, welcome, sir.

 STATEMENT OF MICHAEL McCALLY, EXECUTIVE DIRECTOR, PHYSICIANS 
                   FOR SOCIAL RESPONSIBILITY

    Dr. McCally. Good morning and thank you.
    I am Dr. Michael McCally. I am executive director of 
Physicians for Social Responsibility. I am pleased to join Dr. 
Gerberding and my other witnesses beside me on the subject of 
health and global warming. I will cut my remarks.
    PSR and its 32,000 members believe that climate change is a 
global health crisis. In support of this position, I am pleased 
to provide the Committee today a growing list of very 
distinguished American physicians, including clinicians, 
professors from well-known medical schools, a former Governor, 
Nobel laureates, a former Surgeon General, all physicians, all 
have joined PSR in calling on this Committee and the Congress 
and the President to act on global warming and quickly put in 
place appropriate controls on greenhouse gas emissions.
    I have also provided members of the Committee with a brief 
analysis that highlights human health impacts of global warming 
in the U.S., much in the fashion that Dr. Gerberding has just 
given us. I would very quickly cite just a few examples we have 
heard, and many of them, Madam Chairman, you covered them in 
your opening remarks.
    We have already talked about here this morning the summer 
of 2003 record-breaking temperatures in Europe and the 35,000 
lives that were lost. I would mention air quality, more than 
100 million Americans live in areas where ozone levels exceed 
the U.S. EPA air quality standard. Rates of asthma, respiratory 
and related cardiovascular disease continues to rise. Global 
warming undermines efforts to improve air quality as rising 
temperatures accelerate ozone formation during summer months.
    Finally, West Nile virus, not seen in this Country before 
1999, and I was in New York and worked on the issue as the 
first manifestation of that issue appeared in that city. To 
date, more than 25,000 cases of West Nile virus have been 
reported across this Country and Canada, with more than 1,000 
deaths.
    I would just want to mention briefly the problems of the 
Western United States. In my home State of New Mexico, the 
wildfire season has grown by 78 days in the last three decades. 
The West has seen greater temperature rises than other parts of 
the United States. In some areas, temperatures have already 
risen on average by 2 C over the past century, more than the 
global average of one half degee.
    In coming decades, further rise in temperature will bring 
snows that melt sooner, shrinking snow pack, and threat to the 
stored water supply. It is predicted that water resources in 
the Colorado Basin will decline by 40 percent in this century.
    So it seems to me that the science debate is over. There is 
scientific and increasingly a social consensus that we must act 
definitely to stabilize greenhouse emissions and to limit 
further temperature rise. To date, there has been no 
significant Federal action on global warming. As a scientist 
and a physician, as a citizen and as a grandparent, I find this 
inaction disturbing.
    I have one more page.
    We are passing responsibility for global warming to our 
children and our grandchildren. We need action now. Not all 
government is ineffective. In the absence of a Federal 
response, cities and States have taken action. There are now 
more than 290 American cities and 27 States working on climate 
action plans. These actions include efforts to improve the 
efficiency of vehicles, buildings, expand our use of renewable 
energy, and many of these projects tend carefully to the cost 
implications that have been raised this morning appropriately, 
and include green industrial development.
    The medical community supports the assertions of our 
colleagues who serve on the Intergovernmental Panel on Climate 
Change. In order to reduce U.S. emissions to an acceptable 
level, we support mandatory controls on greenhouse gases that 
will reduce emission levels to a 1990 baseline by the end of 
the next decade, and an 80 percent reduction by the middle of 
the century.
    Finally, to conclude, I do want to point out that 
physicians are beginning to consider the implications of global 
warming for clinical practice and for public health 
preparedness. They will need support and leadership from the 
CDC in particular in these new efforts. I would urge the 
Committee to understand that the Centers for Disease Control, 
and through it, State and local health departments, must be 
appropriately funded to respond adequately to global warming.
    I thank you.
    [The prepared statement of Dr. McCally follows:]

   Statement of Michael McCally, M.D., Ph.D., Executive Director of 
                  Physicians for Social Responsibility
    Good morning, Madame Chair and members of the committee. I am Dr. 
Michael McCally, Executive Director of Physicians for Social 
Responsibility (PSR), and a medical school Professor of Community and 
Preventive Medicine. My field is environmental health. I am pleased to 
join Dr. Gerberding and Commissioner Cooper in testifying before the 
committee about the human health dimensions of global warming.
    Managing global warming will be a long and protracted task. The 
U.S. must engage now and with the same level of effort we mounted to 
deal with previous global crises: two world wars and a cold war. As a 
leading emitter of greenhouse gases the United States must accept its 
share of the burden in solving this problem.
    PSR and its 32,000 members believe climate change is a global 
health crisis. In support of this position I am pleased to provide to 
the committee today a list of 115 distinguished physicians that 
includes professors from 15 medical schools, a former governor, two 
Nobel Laureates and former Surgeon General David Satcher.
    We continue to collect endorsers for these principles, which also 
are supported by the American Nurses Association, the American Public 
Health Association and the National Association of Pediatric Nurse 
Practitioners. Together, these groups represent more than 200,000 
physicians, nurses and public health professionals. All have joined PSR 
in calling on this committee, the Congress and the president to act on 
global warming and quickly put in place appropriate controls on 
greenhouse gas emissions.
    Already, the World Health Organization estimates that 150,000 
people die every year from effects of global warming. While those 
deaths may not be as apparent in the U.S. the impacts of global warming 
are pervasive and will shortly affect every citizen in this country in 
some manner.
    I have provided all members of the committee with a brief analysis 
prepared by PSR that highlights the human health impacts of global 
warming in the U.S. Weather related events that cause death are not 
uncommon in the U.S.--it is the extremes and frequency of these events 
that will cause a mounting public health toll. Likewise, poor air 
quality is presently a problem in many areas of the country and will be 
exacerbated by rising temperatures.
    Already we are seeing the symptoms of global warming in the form of 
heat waves, fires, flooding, hurricanes, drought and increases in pest 
and water borne diseases:
    <bullet> The most recent report from the Intergovernmental Panel on 
Climate Change confirms that across the globe, including here in the 
United States, the frequency and duration of heat waves has increased 
over the last 50 years. In the summer of 2003, record breaking heat 
waves across Europe claimed an estimated 35,000 lives, tragically 
demonstrating the potentially disastrous public health consequences of 
a continued trend of increasingly frequent extreme heat events. Looking 
into the future, researchers estimate that Chicago will experience 25 
percent more frequent heat waves with a business-as-usual scenario, 
while the number of annual heat wave days in Los Angeles will rise from 
12 to between 44 and 95--the upper end of this range marking a 692 
percent increase. Extreme heat, already the number one cause of 
weather-related deaths in the U.S., will become an increasing public 
health burden if global warming is left unmitigated.
    <bullet> Although ambient air pollutant concentrations have 
generally fallen since passage of the 1970 Clean Air Act, more than 100 
million Americans live in areas where ozone levels exceed the U.S. 
Environmental Protection Agency's 8-hour air quality standard and rates 
of asthma and other respiratory diseases continue to rise. Global 
warming will undermine efforts to improve air quality as rising 
temperatures accelerate ozone formation during summer months. A recent 
study published in the journal Climatic Change projects that across 50 
U.S. cities, the number of unsafe air days--days when ozone levels 
exceed the U.S. Environmental Protection Agency's 8-hour air quality 
standard--will increase by 68 percent. The study also estimates that 
the number of unhealthy ``red alert'' days--days when everyone, young 
and old, healthy and infirm are advised to avoid prolonged outdoor 
exertion--is expected to more than double across these 50 cities. Here 
in the nation's capitol, the number of healthy air days during the 
summer months is expected to drop by 24 percent. Left unaddressed, 
rising ozone concentrations will cause serious respiratory and 
cardiovascular health problems in America's cities.
    <bullet> West Nile Virus, virtually unseen in the U.S. as recently 
as 1999, has spread to 47 states as warmer winters and changing 
precipitation patterns allow conditions for an expansion of the 
mosquito population. To date, more than 25,000 cases of West Nile Virus 
have been reported across the country and more than 1,000 deaths have 
been recorded.
    And, extreme weather events are increasing with results that are 
difficult to predict and prepare for. As an example, those of us in the 
medical community were frustrated and finally ashamed of the response 
to Hurricane Katrina. Hundreds of people received inadequate or no 
health care at all. As a result, many unnecessary deaths occurred and 
hundreds of others were left sick without sanitation or clean water 
supplies. And, as the public health fallout of Katrina demonstrated, it 
is the poor and disadvantaged who are likely to suffer the most. They 
have more difficulty escaping the heat, are more frequently exposed to 
the elements and have less access to health care.
    As scientists and physicians we must examine the evidence and look 
for solutions, treatments if you will. Medicine is based on notions of 
prevention. We devise treatment plans or solutions with an aim of cure. 
But, those things that we cannot cure we must work to prevent--
certainly that is the case with global warming. The medical community 
supports the assertions of our colleagues who serve on the 
Intergovernmental Panel on Climate Change. In order to reduce U.S. 
emissions to an acceptable level, we support mandatory controls on 
greenhouse gases that will reduce emission levels to the 1990 baseline 
by the end of the next decade and then lead to an 80 percent reduction 
by the middle of the century.
    In my home state of New Mexico scientists believe that global 
warming is leading to more heat, less snow and more wildfires. The West 
has seen larger temperature increases than any other part of the United 
States. In some areas temperatures have already risen by 2 degrees C 
over the past century, much more than the average change globally of 
+0.5 degrees C.
    Warming clearly is present in the Southwest. In New Mexico the 
wildfire season has grown by 78 days during the past three decades. 
Fire is a significant and costly public health and economic problem. In 
coming decades further rise in temperature will bring later snows that 
melt sooner, shrinking the snow pack and stored water. One study 
predicts that water resources in the Colorado basin will decline by 40 
percent in the century.
    There is scientific and increasingly social consensus that we must 
act quickly and definitively to stabilize greenhouse gas pollution and 
to limit further temperature rise. To date there has been no 
significant federal action on global warming. As a scientist and 
physician, as a citizen and as a grandparent I find this inaction 
unconscionable. We are passing responsibility for global warming to our 
children and grandchildren. The administration has failed to address 
global warming, and the Congress should feel an extra sense of 
responsibility.
    Not all government is ineffective. In the absence of a federal 
response cities and states have taken action. There are now 290 
American cities and 27 states working on climate action plans. These 
actions include efforts to improve the efficiency of our vehicles and 
our buildings and to expand our use of renewable energy from the wind 
and the sun.
    Finally, the U.S. medical and public health community as you have 
heard this morning is not prepared for multiple, large scale disasters 
that will manifest themselves as a result of climate change. 
Preparedness is a new medical and public health mission for which we 
are not adequately funded. I would urge the committee to understand 
that the Centers for Disease Control--and through it state and local 
health departments--must receive the funds necessary to respond 
appropriately to the challenges we will face as a result of global 
warming.
    That concludes my testimony, and I will be glad to answer any 
questions from the committee.
[GRAPHIC] [TIFF OMITTED] T3578.002

[GRAPHIC] [TIFF OMITTED] T3578.003

[GRAPHIC] [TIFF OMITTED] T3578.004

[GRAPHIC] [TIFF OMITTED] T3578.005

[GRAPHIC] [TIFF OMITTED] T3578.006

[GRAPHIC] [TIFF OMITTED] T3578.007

[GRAPHIC] [TIFF OMITTED] T3578.008

[GRAPHIC] [TIFF OMITTED] T3578.009

[GRAPHIC] [TIFF OMITTED] T3578.010

[GRAPHIC] [TIFF OMITTED] T3578.011

[GRAPHIC] [TIFF OMITTED] T3578.012

[GRAPHIC] [TIFF OMITTED] T3578.013

    Senator Boxer. Thank you, sir.
    Susan R. Cooper, Commissioner, Tennessee Department of 
Health. We welcome you.

     STATEMENT OF SUSAN R. COOPER, COMMISSIONER, TENNESSEE 
                      DEPARTMENT OF HEALTH

    Ms. Cooper. Thank you, Madam Chairman and members of the 
Committee. I am here today as the Commissioner of the Tennessee 
Department of Health, and also as a member of the Association 
of State and Territorial Health Officials, or ASTHO. This 
organization represents all of the State and territorial public 
health agencies of the United States, the U.S. territories, and 
the District of Columbia. Our members are the chief health 
officials of these agencies. As Commissioner of Health, one 
would ask what our job is, and it is pretty simple. Our job is 
really to protect, promote and improve the health of the 
citizens of our States.
    It is really a pleasure to be here today to discuss the 
human health impacts of climate change. I would like to begin 
by thanking you for recognizing the need to include the public 
health system in preparing for and responding to the 
consequences of climate change. ASTHO does support the 
scientific consensus put forward with the IPCC Fourth 
Assessment Report that the weight of evidence demonstrates that 
human factors have and will continue to contribute 
significantly to changing the world's climate.
    We have validated this through a unanimous passage of our 
position statement about three weeks ago. Our statement 
complements the policy and position statements of the Centers 
for Disease Control and Prevention and the National Governors 
Association.
    We know that the anticipated health effects related to 
weather and climate change include death and illness from heat 
waves, injuries from catastrophic events such as hurricanes, 
tornadoes and floods, increased air pollution with concurrent 
rises in respiratory and cardiovascular disease, detrimental 
impacts on water quality and quantity, and an increase in the 
incidence of vector-, food- and water-borne diseases.
    Recent climate-related challenges from extreme weather 
events and the changing patterns of communicable disease, have 
already demonstrated the critical need to improve public health 
capacity to identify, prevent and respond to these threats.
    We recognize that climate change has serious far-reaching 
implications for the health of this and future generations. So 
today, I would like to focus on the assertion that climate 
change has the potential to place unprecedented demands upon 
the public health infrastructure of the United States, the need 
for action to bolster State, Federal and local health systems 
to cope with these challenges, and urging our State, local and 
Federal government bodies, including legislatures, to provide 
leadership in the development and coordination of sound public 
health policy.
    We acknowledge that there are great uncertainties regarding 
the project impacts of climate change on health. The actual 
impacts may be influenced by many confounding factors, such as 
socioeconomic status, demographic structures, geographical 
location, access to medical care, and adaptation measures. We 
as States continually and effectively respond to weather- and 
climate-related events, but our systems are being taxed by 
these events as they are appearing with increased frequency and 
greater severity.
    I would just like to give you a few State examples. In 
August of this year, Tennessee faced a significant and very 
deadly heat wave. It resulted in temperatures exceeding 100 C 
for a number of days, accompanied by significant drought. Water 
systems were taxed. Power demands led to rolling electrical 
outages. Human effects were substantial, resulting in 15 
deaths, 14 in one county.
    We were very successful in proactively addressing the heat 
by working with the Governor's office and other State agencies 
to reach out to vulnerable populations to provide air 
conditioners to low-income elders and families with children; 
to coordinate water and cooling stations; and opening community 
health shelters for those at risk.
    We have seen an algal bloom on the Chesapeake Bay, which 
has resulted in major fish kills, threatening oyster farms and 
certainly impacting human health through shellfish poisoning. 
In Montana, we know that this State is faced with significant 
wildfire threats and increasing temperatures will see a 
continued rise in those, contributing to increased respiratory 
distress and failure, death in many cases.
    In Georgia, again they are facing significant droughts. 
Unfortunately, they have seen a rise in the occurrence of West 
Nile virus, where in Tennessee our drought has produced a 
decrease in West Nile virus.
    There are many, many examples of this, but we are her today 
to ask for strong coordination and collaboration across all 
tiers of government to really improve our understanding of 
climate change so that we can optimally prepare and respond to 
these health impacts.
    We urge you to look toward research investment to better 
understand the potential health impacts of climate change and 
to develop and enhance our surveillance capabilities to 
mitigate impacts. These efforts should include, but not be 
limited to initiating and promoting scientifically based health 
programs, developing practice standards, identifying promising 
practices and success stories, developing decision support 
systems that enable our agencies to predict, anticipate and 
model events, and develop early warning systems that will help 
us enable rapid response.
    I see that my time is over. I have many more things I would 
love to share with you, but I will stop, and I would be happy 
to take any questions at the end.
    [The prepared statement of Ms. Cooper follows:]

    Statement of Susan R. Cooper, MSN, RN, Commissioner, Tennessee 
    Department of Health, Representing the Association of State and 
                      Territorial Health Officials
                                Opening
    Chairman Boxer, Senator Inhofe, Senator Alexander and Members of 
the Committee, I am Susan R. Cooper, MSN, RN, Commissioner of the 
Tennessee Department of Health and member of the Association of State 
and Territorial Health Officials (ASTHO). ASTHO represents the state 
and territorial public health agencies of the United States, the U.S. 
Territories, and the District of Columbia. Our members are the chief 
health officials of these agencies. My job is to protect, promote and 
improve the health of the citizens of my state. It is a pleasure to 
appear before you today to discuss the human health impacts of climate 
change.
                       background and challenges
    First, let me begin by thanking you for recognizing the need to 
include the public health system in preparing for and responding to the 
consequences of climatic change. ASTHO supports the scientific 
consensus put forward within the Intergovernmental Panel on Climate 
Change Fourth Assessment Report that the weight of evidence 
demonstrates that human factors have and will continue to contribute 
significantly to changing the world's climate. This recognition is 
clearly illustrated through the unanimous passage of a Position 
Statement on Public Health and Climate Change during the ASTHO Annual 
Meeting, held just three weeks ago. ASTHO's position statement 
compliments the policy and position statements of the Centers for 
Disease Control and Prevention and the National Governors Association.
    The anticipated health effects related to weather and climate 
change include death and illness from heat waves, injuries from 
catastrophic events such as hurricanes, tornadoes, and floods, 
increased air pollution with concurrent rises in respiratory and 
cardiovascular diseases, detrimental impacts on water quality and 
quantity, and an increased incidence of vector-, food- and water-borne 
diseases. Recent climate-related challenges, from extreme weather 
events to changing patterns of communicable disease, have already 
demonstrated the critical need to improve public health capacity to 
identify, prevent, and respond to these threats.
    ASTHO recognizes that climate change has serious far-reaching 
implications for the health of this and future generations. My remarks 
will focus on (1) the assertion that climate change has the potential 
to place unprecedented demands upon public health infrastructure in the 
United States, (2) a need for action to adequately bolster federal, 
state and local health systems to cope with the present and future 
challenges of climate change, and (3) urging federal, state and local 
government bodies, including legislatures, to provide leadership in the 
development and coordination of sound public health policy to address 
health impacts related to climate change.
    ASTHO acknowledges that there are uncertainties regarding the 
projected impacts of climate change on health. The actual effects of 
climate change on population health are influenced by many confounding 
factors, including socioeconomic status of individuals and communities, 
demographic structure of the population, geographical location, access 
to medical care, and adaptation measures implemented to reduce negative 
impacts. Recognizing these uncertainties, ASTHO supports decisive 
action to adequately bolster public health infrastructure to prepare 
for future challenges.
           key issues and state examples in the health sector
    States continually and effectively respond to weather and climate 
related events but the systems are being taxed as these types of events 
appear to occur with increased frequency and with greater severity. I 
would like to give a few recent state specific examples.
    In August of this year, Tennessee experienced a prolonged, severe 
heat wave which lasted eleven days where temperatures exceeded 100 
degrees. This was accompanied by a severe drought. Water systems were 
severely taxed, resulting in numerous water restriction orders. Power 
demands led to rolling electrical outages in some areas. Human effects 
were substantial. Fifteen deaths were reported to be heat-related, 
fourteen of which occurred in one Tennessee county. An increase in heat 
related illnesses and injury was also reported. Through surveillance 
activities and proactive monitoring, the Tennessee Department of Health 
reached out to communities at risk to provide statewide information on 
preventing heat-related illness and injury. In addition, the TDOH 
worked with the Governor's office and other state agencies to identify 
vulnerable populations and to activate our public health preparedness 
system to implement mitigation strategies such as providing window air 
conditioning units to low income elders and families with children, 
coordinating water/cooling stations, and opening community shelters for 
those at risk.
    With increased surface water temperatures, states all along U.S. 
coasts are seeing increases in harmful algal blooms. In 2007, a bloom 
along the Chesapeake resulted in a major fish kill and threatened 
oyster farms along the Bay. Blooms not only impact the aquatic life, 
but can also directly impact human health through shellfish poisoning, 
skin irritation from direct contact, respiratory distress by inhalation 
of toxins, and decreased availability of recreational waters. Algal 
bloom events also attract significant public and media attention. The 
Virginia Department of Health works collaboratively with other state 
agencies and academic institutions on a Harmful Algal Bloom Task force 
to monitor, respond to and communicate with the public about algal 
blooms.
    In Montana, a state that routinely faces wildfire threats, 
increasing temperatures will result in more frequent occurrences of 
large, uncontrolled fires. Wildfires not only pose a direct threat to 
the health and safety of nearby residents, but also create dangerous 
levels of particulates in the air, contributing to respiratory distress 
and failure, and death in many cases. In 2007, the Montana Department 
of Public Health and Human Services worked closely with the Department 
of Environmental Quality to issue alerts about air quality and health 
impacts, aimed particularly at vulnerable populations. The state health 
agency also utilized the Health Alert Network to communicate with local 
health professionals throughout the fire season.
                               challenges
    In Georgia this year, an extreme drought situation has impacted 
both the availability of water and paradoxically resulted in an 
increase in mosquito populations throughout the state. Because of the 
lack of precipitation, residents are being forced to irrigate and water 
their lawns and gardens to make up for the drought, creating fertile 
opportunities for mosquito growth. Subsequently, human West Nile Virus 
cases have risen to more than twice the number as were reported in 
2006. The public health outcomes and impacts of shifts in weather 
patterns on individual states and localities is unpredictable and 
complex. While Georgia saw an increase in West Nile Virus cases with an 
extended drought, Tennessee saw a 68 percent decrease in cases as a 
result of the severe drought and significant water use restrictions. In 
order to ensure adequate response to protect the public's health with 
such variations, it is essential that we maintain critical public 
health surveillance systems and that they be equipped to monitor real-
time changes in disease trends.
    Climate change may increase the number of known disease vectors, 
such as mosquitoes and ticks, or expand the geographic range of these 
disease vectors and their natural reservoirs. Climate conditions that 
increase water temperatures, water salinity or nutrient levels would 
change marine ecosystems along the Texas gulf coast and possibly 
increase diseases associated with fish and shellfish consumption and 
swimming. The impact of climatic change on disease occurrence is 
uncertain. However, to identify any change in disease occurrence, local 
and state health departments need to maintain disease surveillance 
activities to detect any changes in disease occurrence and to identify 
vulnerable subpopulations that would be adversely impacted by changing 
climatic changes. In 2005, the first cases of domestically acquired 
Dengue Fever were identified in Cameron County along the Texas-Mexico 
border. The Texas Department of State Health Services conducted an 
epidemiologic investigation and continues to conduct surveillance for 
Dengue Fever. In addition to changes in infectious disease patterns, 
health departments may need to develop new surveillance systems to 
measure non-infectious diseases such as heat-related deaths and asthma 
related to decreasing air quality. Maintaining and enhancing disease 
surveillance systems and having staff to analyze and evaluate 
information collected by these systems will ensure the detection of 
disease changes and ensure that appropriate disease intervention and 
control measures are initiated.
               planning and preparing for climate change
    ASTHO advocates strong coordination and collaboration across all 
tiers of governmental public health to improve understanding of climate 
change and enable optimal preparation and response to related health 
impacts. We urge federal, state and local government bodies, including 
legislatures, to provide leadership in the development and coordination 
of sound public health policy to address health impacts related to 
climate change.
    ASTHO supports enhancing the ability of federal, state and local 
health agencies to understand and prepare for the health impacts linked 
to climate change in their jurisdictions. ASTHO urges the federal 
government to provide leadership, resources and programs to support 
state health agencies in developing educational initiatives to raise 
awareness of the link between climate change and human health among 
public health professionals and prepare for the potential health 
impacts with enhanced planning, surveillance initiatives, and event 
response. Sustaining funding for public health preparedness will be 
critical in helping state and local health departments maintain the 
capacity to respond to climatic and other public health emergencies.
    ASTHO supports investment in research to better understand the 
potential health impacts of climate change and to develop and enhance 
surveillance and response systems to mitigate health impacts. These 
efforts should include, but not be limited to, initiating and promoting 
scientifically based health programs; developing practice standards; 
identifying promising practices and success stories; developing 
decision support systems that enable agencies to predict, anticipate 
and model events; and developing early warning systems that enable 
rapid response.
    ASTHO emphasizes the importance of public health agencies and 
professionals to inform communities, policy makers, other government 
departments and industry of the public health impacts of climate 
change. Public health leaders must be at the forefront of all 
mitigation and adaptation actions related to climate change. ASTHO 
encourages public health agencies and professionals to actively engage 
with all stakeholders to insure consideration of the potential health 
impacts in all aspects of behavior, consumption and decision making 
that may contribute to climate change. ASTHO urges public health 
agencies and professionals to actively promulgate policies towards 
preventing and mitigating the public health impacts of climatic change.
    In closing, I want to again thank the members of this Committee for 
your past commitment to improving the health, safety and wellbeing of 
our nation. We know that so much more can be and must be done to 
protect our nation's health as we continually anticipate and prepare 
for a myriad of public health threats. We welcome the opportunity to 
continue to work with you in pursuit of that goal.
    Thank you for your attention. I will be pleased to answer any 
questions you may have.

                                 ______
                                 
         Response by Susan R. Cooper to an Additional Question 
                          from Senator Inhofe
    Question. A recent article in ``Geotimes'' magazine shows that 
global population killed by natural disasters has decreased 10-fold 
since 1964, while the number of natural disasters has risen 5-fold. 
Would you say that humans are more prepared than ever for natural 
disasters?
    Response. I can say, without reservation, that as a Nation, we are 
much better prepared today than ever before to effectively respond to 
all hazards, including natural disasters. It is important to emphasize 
that in addition to advancing critically important interventions to 
prevent the occurrence or at least mitigate the magnitude of such 
events, the public health community is also responsible for managing 
the health and medical consequences when emergencies and disasters do 
occur. This is paramount given the ever increasing threats our society 
faces and must deal with, and the fact that we will never be in a risk-
free environment and public health must remain at the ready to prevent, 
control and reduce illness, injury, and mortality.
    The example you have shared clearly illustrates success in this 
regard. Through effective pre-event planning, training and exercising 
response personnel, use of rapid detection and surveillance systems, 
early warning and communications strategies including public education 
and awareness, and building surge capacity in our health care system to 
handle mass casualties, we have and will continue to strive to further 
reduce the impacts of man-made and natural disasters and acts of 
terrorism.
    We are clearly seeing the return on our investment in rebuilding 
and strengthening our public health system since 2001. We must, 
however, sustain these capacities and capabilities and further expand 
them in order for all jurisdictions to be equally well prepared at all 
times. We cannot become complacent and let our guard down. The threats 
and challenges from all sources, including those such as extreme 
weather events and the emergence of infectious diseases which may be 
attributed to climate change, warrant priority consideration as it 
pertains to federal funding, technical assistance provided to states 
and localities, and sound national policies and strategies.
                                 ______
                                 
         Responses by Susan R. Cooper to Additional Questions 
                           from Senator Boxer
    Question 1. Please describe the importance of preventing conditions 
that create health threats, rather than acting to reduce the adverse 
impacts of such threats.
    Response. Primary prevention involves taking action to prevent 
problems from occurring before the onset of symptoms. It focuses on 
environmental or systemic changes that are aimed at entire populations, 
such as an entire community, rather than treating one individual at a 
time.
    About twenty years ago, a metaphor about ``going upstream'' was 
created to help explain the value of prevention. Today, that metaphor 
still works well for creating new converts. This example taken from the 
Prevention Institute (www.preventioninstitute.org) helps explain the 
value of prevention. Suppose you are standing next to a river, and you 
see someone drowning as he floats downstream. You jump into the river 
and pull him ashore. As soon as you've done that, you see another 
person in trouble, again floating downstream, and you rescue her as 
well. Every time you've saved one person, you see another, and another. 
After you've dragged another drowning body out of the river, you're 
thoroughly exhausted and you know you don't have the energy to save one 
more victim so instead you decide you must go upstream to find out what 
is causing these people to drown. If you can prevent whatever is 
causing these people to drown at the source, you won't have to continue 
saving the victims, one by one. Eventually, you find that people are 
falling into the river because they are stepping through a hole in a 
bridge. You fix the bridge, and people stop falling in. Primary 
prevention means ``going upstream'' and fixing the bridge before more 
people fall into the river. This takes fewer resources, and results in 
less pain and suffering than pulling each drowning person out of the 
river.
    While ``downstream'' efforts are important and represent one of the 
primary roles of public health, focusing attention and effort 
``upstream'' will more effectively reduce human suffering, medical 
costs, productivity losses, injury and death.
    ASTHO encourages policy makers to make prevention a cornerstone of 
America's health system. Ensuring that a reformed health system 
incorporates prevention policy principles would have an enormous impact 
on the health of the American people. Delivering preventive services 
that have been proven effective is essential if we are to optimize the 
health of our citizens.
    Investing in prevention means supporting the two approaches that 
health professionals use to promote health and prevent disease, namely, 
(1) improving the quality and quantity of clinical preventive services 
delivered to individual patients and (2) implementing community 
preventive services, programs, and policies aimed at broad populations 
or sub-populations.
    Considerable and compelling evidence makes clear that community 
preventive services aimed at populations have an enormous impact on 
health and are extremely cost-effective. The nation will get a much 
greater return on investment by focusing on health improvements in 
communities, schools, and worksites rather than focusing solely on what 
occurs in traditional healthcare settings, such as doctors' offices and 
hospitals.
    A health system continuum must be developed that goes from 
community-based health promotion and disease prevention, to primary 
care-based health promotion and disease prevention, to primary-based 
early detection and treatment of disease, to specialty care diagnostic 
testing, hospital care, emergency care, and end-of-life care.

    Question 2. What types of coordinating activities by the federal 
government can best assist states to prepare to address the human 
health impacts from global warming?
    Response. ASTHO advocates strong coordination and collaboration 
across all tiers of governmental public health to improve understanding 
of climate change and enable optimal preparation and response to 
related health impacts. ASTHO urges the federal government to strongly 
consider the health impacts related to climate change as a key 
consideration in reforming existing policy and law, and in future 
decision making and resource allocation that may contribute to negative 
health outcomes from climate change. Policies and decisions that 
further contribute or exacerbate changes in climate, should strongly 
consider adverse effects to the health of the community in all 
deliberations. Further, policies and practices from federal agencies 
that can help to mitigate the emerging threats to public health from 
climate change and that can support health agencies to better prepare 
for the health impacts are urged.
    Coordination of a comprehensive research agenda to establish a more 
complete picture of evidence as to the health impacts associated with 
climate change is of paramount importance. Establishing a core center 
to coordinate and pursue this research agenda with participation from 
all arms of the federal government is urgently needed. In addition to 
fundamental research on health impacts, the establishment of a research 
agenda to develop improved systems to undertake surveillance to monitor 
and model changes and their likely effects on public health is also in 
great need. The coordination of leading federal agencies to develop 
early warning systems tied to changing weather patterns, natural 
ecology and human factors will add to the capabilities of state and 
local health agencies to manage changes to public health threats.
    ASTHO urges the first tier involvement of the Department of Health 
and Human Services (DHHS) in all federal initiatives related to 
addressing climate change. ASTHO believes that it is imperative that 
public health is fully and equally engaged with all other 
considerations when working towards the challenges that climate change 
presents, and urges the federal government to include representation 
from DHHS in all federal discussions related to climate change.
    As Climate Change and the health effects that may be experienced 
will be very different from region to region, the federal government 
must play a greater role to coordinate activities, provide sage 
technical assistance and guidance and foster adequate and necessary 
allocation of funding for specific initiatives. Increased coordination 
should enable more flexibility to improve resource allocation and can 
ensure commonality in the goals of the different arms of the federal 
government.

    Senator Boxer. Thank you very much.
    Dr. Roberts, we welcome you. Dr. Roberts is Professor 
Emeritus, Uniformed Services University of the Health Sciences.

 STATEMENT OF DONALD R. ROBERTS, PROFESSOR EMERITUS, UNIFORMED 
           SERVICES UNIVERSITY OF THE HEALTH SCIENCES

    Mr. Roberts. Thank you, Chairman Boxer.
    I will address the specific issues of climate change and 
vector-borne diseases.
    Opinions and perspective of individuals who have long and 
credible histories of insect-borne disease research and 
operational experience have often been excluded from the debate 
on the role warming temperatures might have on future trends of 
malaria and other insect-borne infections. For this reason 
alone, I appreciate the opportunity to be here today to 
describe the work and evidence compiled by some of those 
experts.
    The human health impact of global warming is being used as 
an argument for political actions to forestall theoretical 
harm. I am concerned about the scientific validity of this 
argument. I am also concerned about the consequences political 
actions will have for poor people in the United States and 
elsewhere.
    The acquisition of human disease is under great regulatory 
control of human behavior, disease-preventive measures, the 
economy, and standards of living. I will briefly summarize two 
reports.
    One was on dengue along the border of Texas and Mexico. 
This was conducted by CDC. There was low risk of dengue on the 
Texas side because of air conditioning that prevented mosquitos 
from entering houses or places of businesses and transmitting 
disease. This was not true for most businesses and households 
in Mexico, illustrating the importance of a vigorous economy 
and high standards of living to prevent dengue.
    The same is true of our protections against malaria. 
Malaria-infected people continually enter the United States, 
yet we maintain almost no response capability to an imported 
case or exercise any specific preventive measures. Our freedom 
from malaria is not because of cold U.S. temperatures, use of 
insecticides, antimalarial drugs, or any other specific 
malaria-preventive measure.
    No, our 60-year record of freedom from endemic malaria is a 
result of wealth and high standards of living. Indeed, a high 
standard of living is far and away the best malaria preventive 
measure yet discovered.
    However, absent a strong economy and high living standards, 
malaria preventives will still eliminate or reduce malaria 
transmission. This point is illustrated with results of malaria 
control operations in Southern Africa. Joint malaria control 
operations in Swaziland and Mozambique have been underway since 
1999. Again, I will summarize the results.
    In pre-spray surveys, infection rates in children in 
Mozambique were 64 percent. In Swaziland, they were 2 percent 
to 8 percent. The only explanation for low malaria infections 
in Swaziland and high infection rates just across the border in 
Mozambique was Swaziland sprayed houses. Mozambique did not. 
After spray operations were implemented in Mozambique, malaria 
rates on the Mozambique side of the border dropped from a pre-
spray rate of 62 percent to 38 percent in 2001, and 22 percent 
in 2002, and 8 percent in 2003. Rates also dropped in Swaziland 
to 0.25 percent.
    In summary, we can control malaria regardless of warm 
temperature or other natural ambient conditions. Our malaria 
problems stem from failure to do so.
    I would like to end my testimony with comments about who 
might be harmed by political action on climate changed based on 
the idea that insect-borne diseases will spread. Luckily, we 
can learn from history. In previous history before this 
Committee, I detailed the unfortunate political process that 
led to restrictions on the use of DDT and other insecticides in 
malaria control. These restrictions were not based on 
scientific evidence, and we can trace the re-emergence of 
malaria to the rise in political pressure to ban the use of DDT 
and to dismantle spraying programs.
    The people who paid for this unscientific political action 
were poor people in poor countries, and over many years 
millions paid with their lives. It has taken many hard, 
difficult years to fight against this anti-insecticides agenda, 
but now the U.S. Government is once again supporting malaria 
control that uses insecticides, including DDT. As a result, 
lives are being saved and malaria control is improving in many 
countries.
    We have a responsibility not to repeat past mistakes. I 
would urge this Committee to pay close attention, close and 
careful attention to the science and to disease control experts 
before taking political action on climate change on the basis 
of the spread of insect-borne diseases.
    Thank you.
    [The prepared statement of Mr. Roberts follows:]
Statement of Donald R. Roberts, Professor Emeritus, Uniformed Services 
                   University of the Health Sciences
    Thank you Chairman Boxer, ranking member Inhofe and members of the 
Senate Committee on Environment and Public Works for the opportunity to 
present my views on human health impacts of global warming.
    Opinions and perspectives of individuals who have long and credible 
histories of insect-borne disease research and operational experience 
have often been excluded from the debate on the role warming 
temperatures might have on future trends of malaria and other insect 
borne infections. For this reason alone, I appreciate the opportunity 
to be here today to describe the work and evidence compiled by people 
with hands-on-experience in the field of vector-borne disease control.
    The topic of your hearing is important. The human health impact of 
global warming is being used as an argument for political actions to 
forestall theoretical harm. I am concerned about the scientific 
validity of this argument. I am also concerned about the consequences 
political actions will have for poor people in the United States and 
elsewhere. I will address these concerns in the course of my testimony.
    A BBC report detailed a claim by WHO and researchers\1\ that global 
warming would cause major increases in insect borne diseases. This 
claim is often repeated and similar claims have even suggested that 
global warming will worsen the problems of malaria in Africa and other 
endemic regions.\2\
---------------------------------------------------------------------------
    \1\ BBC News. Global warming disease warning. Friday, June 18, 
1999. Website: http://news.bbc.co.uk/1/hi/sci/tech/372219.stm ``The 
World Health Organisation (WHO) says global warming could lead to a 
major increase in insect-borne diseases in Britain and Europe.''
    ``This in turn could lead to an increase in disease-carrying pests 
such as ticks, mosquitoes and rats, which live in warmer climates and 
whose breeding-grounds are often in damp areas.''
    `` `There is an urgent need to consider how to improve research and 
monitoring and how to minimise adverse health impacts,' they write in a 
report in the British Medical Journal.''
    \2\ Warming trend may contribute to malaria's rise. Science Daily, 
March 22, 2006. Website: http://www.sciencedaily.com/releases/2006/03/
060322142101.htm
---------------------------------------------------------------------------
    No knowledgeable biologist would argue temperatures do not 
influence developmental rates of mosquitoes or developmental rates of 
malaria parasites in mosquitoes. Temperature does, in fact, have strong 
regulatory control over these developmental events. Likewise, 
combinations of factors, such as warming temperatures and increasing 
rainfall can produce favorable conditions for mosquito production. 
However, acquisition of insect-borne pathogens is complex and should 
never be reduced to considerations of warming temperatures alone. The 
one thing we have learned through the course of time and experience in 
control of insect-borne diseases is that presence of disease is largely 
a product of a few, very important, factors. One is human behavior as 
it relates to disease acquisition. Another factor is preventive 
measures to stop disease transmission. Another two factors are economic 
conditions and standards of living that work to prevent acquisition of 
disease. I want to illustrate the importance of the latter two factors 
with a study conducted by a large team of investigators led by Dr. Paul 
Reiter in the border area with Mexico.\3\
---------------------------------------------------------------------------
    \3\ Reiter P, Lathrop S, et al. Texas lifestyle limits transmission 
of dengue virus. Emerg Infect Dis [serial online] 2003 Jan. Available 
from: URL:http://www.cdc.gov/ncidod/EID/vol9no1/o2-0220.htm
---------------------------------------------------------------------------
    Each year Mexico reports outbreaks of dengue fever. For example, on 
Sunday, October 20, 2007, the Secretary of Health announced a dengue 
epidemic underway in Mexico, with almost 23,000 cases so far this year 
and 6 deaths.\4\ Dengue outbreaks even occur along the border of Mexico 
with the United States. However such outbreaks generally do not extend 
into the United States.
---------------------------------------------------------------------------
    \4\ Folha Online [20.10.2007] http://www1.folha.uol.com.br/folha/
mundo/ult94u338268.shtml
---------------------------------------------------------------------------
    The study I refer to was conducted in 1999 and encompassed two 
border towns, one in Mexico (Nuevo Laredo) and one in Texas (Laredo). 
The two towns are located close together and combined could be viewed 
as a single city with a river running through it. Temperature and 
climatic conditions in Laredo and Nuevo Laredo are practically the 
same. The population of Laredo was 200,000 and Nuevo Laredo was 
289,000. The study involved collecting data on mosquito abundance and 
sero-prevalence of dengue infections (analyses of anti-bodies as 
evidence of previous dengue infection) in sample households in the two 
towns. Investigators found that Aedes aegypti, the urban vector of 
dengue virus, was more abundant in Laredo. Yet, sero-prevalence of 
dengue was greater in Nuevo Laredo. So, while the mosquito vector was 
``remarkably'' abundant in the Texas town, risk of dengue infection was 
much less. The investigators used various sets of data to show that the 
major factor accounting for lower risk of dengue infections in Laredo 
was extensive use of air conditioners and evaporative coolers. In 
Laredo, houses and business were enclosed and people remained indoors 
where it was cool. As a result, mosquitoes could not enter houses or 
places of business and transmit disease. This was not true for most 
businesses and households in the Mexican city of Nuevo Laredo.
    Essentially, the 1999 study illustrates the importance of a 
vigorous economy and high standards of living to prevent dengue and 
other important insect-borne diseases. The same is true of our 
protections against malaria. Many malaria-infected people are reported 
in the United States each year. For example, over 1,300 imported cases 
were documented in 2002\5\ and this does not accurately account for 
many unreported cases that occur in illegal workers. In spite a 
continuous flow of malaria infections into the U.S., our country does 
not have endemic malaria. We have sustained this relative freedom from 
malaria for almost 60 years. Yet, we maintain almost no response 
capability to an imported case or exercise any specific preventive 
measures. Our freedom of malaria is not because of cold U.S. 
temperatures, use of insecticides or anti-malaria drugs, or any other 
specific malaria preventive measure. No, our freedom from malaria is a 
direct result of wealth and high standards of living. Indeed, a high 
standard of living is far and away the best malaria preventive measure 
yet discovered. However, absent a strong economy and high standards of 
living, malaria preventives will still eliminate or reduce malaria 
transmission, regardless of amount of rainfall or regardless of warming 
temperatures. To illustrate this point I will describe results of 
malaria control in southern Africa.
---------------------------------------------------------------------------
    \5\ http://www.ncbi.nlm.nih.gov/sites/
entrez?cmd=Retrieve&db=PubMed&list--uids=12875252&dopt=AbstractPlus
---------------------------------------------------------------------------
    I take this example from the Lubombo Spatial Development Initiative 
(LSDI).\6\<SUP>,</SUP> \7\ This is a joint program between the 
governments of Mozambique, Swaziland, and South Africa to develop the 
general region into a competitive economic zone. The communities in 
this zone (Lubombo region) of high malaria risk are some of the poorest 
in the region. Malaria control was a priority undertaking of the LSDI 
because malaria control was recognized as a precursor to development. 
The tri-national program agreement was signed in 1999 and various 
stages of the program got underway in October 1999. Of the three 
countries, I will compare conditions in Swaziland with Mozambique.
---------------------------------------------------------------------------
    \6\ Sharp BI, Kleinschmidt I, et al. Seven years of regional 
malaria control collaboration--Mozambique, South Africa, and Swaziland. 
Am J Trop Med Hyg 76(1), 2007:42-47.
    \7\ Lubombo. Malaria control in the Lubombo spatial development 
area. A regional collaboration. Report produced on behalf of the 
Regional Malaria Control Commission by the MRC and UCT. August 2004:34 
pp.
---------------------------------------------------------------------------
    Environmental conditions and native peoples of the adjoining strips 
of Mozambique and Swaziland are very similar. Patterns of temperature 
and rainfall are similar. There is considerable poverty in both and the 
only truly significant difference, in regard to malaria, is that 
Swaziland has maintained an indoor spray program for many years.\8\ For 
this reason, when pre-spray (as far as the startup of the Lubombo 
initiative) surveys were conducted in 1999, malaria prevalence at the 4 
sentinel sites in Swaziland was 2-8 percent. There were no significant 
differences in infection rates in children versus older age groups. In 
striking contrast, Mozambique had no routine spray program leading up 
to the pre-spray survey. Child and adult prevalence surveys were 
conducted at all sites in the first survey round in December 1999 in 
Mozambique. Average infection rate in children was 64 percent and 30 
percent in adults. Infection rate differences in children and adults 
are attributed to protective immunity from frequent malaria infections. 
In other words, children in Mozambique were more susceptible to 
infection than were adults.
---------------------------------------------------------------------------
    \8\ Tren R. Africa Fighting Malaria. Washington D.C. personal 
communication October 18, 2007.
---------------------------------------------------------------------------
    Data from these two countries show how preventive measures can 
truly provide high levels of malaria prevention in areas of high 
malaria risk. The level of protection is revealed in low infection 
rates in Swaziland (2-8 percent) versus 30 to 64 percent infection 
rates in adults versus children in Mozambique. The only explanation for 
low malaria infections in Swaziland and high infection rates just 
across the border in Mozambique was Swaziland sprayed houses. 
Mozambique did not. Additionally, once malaria infections were reduced 
in border areas of Mozambique, Swaziland infection rates dropped even 
lower. This drop was attributed to fewer imported malaria cases from 
across the border with Mozambique. By 2006, infection rates in 
Swaziland were only 0.25 percent. After spray operations were 
implemented in Mozambique, malaria rates on the Mozambique side of the 
border dropped from a pre-spray rate of 62 percent to 38 percent in 
2001, 22 percent in 2002, and 8 percent in 2003. This example provides 
stark testimony to the fact that we can exert effective control over 
malaria regardless of warm temperatures or other natural ambient 
conditions. The bottom line is, we can control malaria. Our malaria 
problems stem from failure to do so.
    I would like to end my testimony with a few comments about who 
might be harmed by political action on climate change based on the idea 
that insect borne diseases will spread. Luckily we can learn from 
history. In previous testimony before this committee I detailed the 
unfortunate political process that led to restrictions on the use of 
DDT and other insecticides in malaria control. These restrictions were 
not based on scientific evidence and we can trace the re-emergence of 
malaria and other insect borne diseases such as dengue to the rise in 
political pressure to ban the use of DDT and to dismantle the spraying 
programs. The people who paid for this unscientific political action 
were poor people in poor countries and, over many years, millions paid 
with their lives. It has taken many hard and difficult years to fight 
against this anti-insecticides agenda, but now the U.S. government is 
once again supporting malaria control that uses insecticides including 
DDT. As a result, lives are being saved and malaria control is 
improving in many countries. But many lives were lost thanks to the 
unscientific and largely political anti-insecticides campaign. We have 
a responsibility not to repeat past mistakes. I would urge this 
committee to pay close and careful attention to the science and to 
disease control experts before taking political action on climate 
change on the basis of the spread of insect borne diseases.
        Responses by Donald R. Roberts to Additional Questions 
                          from Senator Inhofe
    Question 1. You testified about the program instituted by several 
poor African nations to reduce malaria. I was startled to hear about 
the enormous difference that Swaziland's, and later, Mozambique 
spraying program made in decimating malaria rates. Can you discuss 
further your views on the argument that increasing temperatures mean 
that malaria deaths will skyrocket?
    Response. Those who argue that warming will increase malaria deaths 
base their opinions on certain fundamental, but irrelevant, 
relationships. One irrelevant relationship is warming temperature can 
speed development of insects and pathogens inside insects. Another 
irrelevant relationship is that warming may change area ecology and 
allow a competent malaria vector to move in and transmit disease to 
people who live there. I will explain why these relationships are 
irrelevant; but first I want to focus attention on how climate change 
can actually reduce risks of disease and death.
    It is important to understand that too much warming can accelerate 
death of malaria-carrying mosquitoes. In fact, even modest warming, in 
absence of adequate humidity, can reduce survival of the malaria 
mosquito. As mentioned above, some argue that warming temperatures will 
change local ecology in ways that favor increased survival or improve 
reproductive success of malaria mosquitoes. In fact, changes in local 
ecology can have no affect at all on malaria mosquitoes or work against 
both survival and reproductive success of malaria mosquitoes. Likewise, 
warming and ecological changes may be entirely neutral or even work 
against invasion of competent vectors into areas where they have not 
been before. The reason for focusing attention on these interactions is 
to advise that belief in warming temperature as a cause of increasing 
malaria deaths is wrong.
    Temperature is just one of many factors that influence the 
transmission and spread of arthropod-borne diseases (such as malaria). 
We can consider the appearance and spread of Lyme disease in the United 
States to get a better understanding of the complexities and regulatory 
controls of these diseases. Lyme disease, as with other arthropod-borne 
pathogens, can benefit from warming temperatures.
    Lyme disease was first recognized as a disease entity in the 
northeastern U.S. in the 1960s\1\. It has grown as a public health 
problem since those years and has spread into many new areas. I recall 
when it was not present in Maryland. Then in the 1980s the disease made 
its appearance in Maryland and is now strongly entrenched there. It has 
spread to other states as well. Unlike malaria, which is transmitted by 
mosquitoes, ticks transmit Lyme disease and rodents are important in 
Lyme disease epidemiology. Yet, deer are the preferred host of the 
adult tick and increases in deer populations have facilitated spread of 
this disease. As numbers of deer continually increased, especially in 
urban areas, tick densities increased, the disease spread to new areas, 
and human infection became more common. Thus, Lyme disease is an 
example of a disease agent that benefits from warming temperatures but 
is most prevalent in colder regions. The reason for this distribution 
is that temperature is only one factor in a vast array of factors that 
influence Lyme disease distribution and proliferation. The same is true 
for malaria.
---------------------------------------------------------------------------
    \1\ Steere AC, Coburn J, Glickstein L. The emergence of Lyme 
disease. J Clin Invest. 2004 April 15; 113(8): 1093-1101.
---------------------------------------------------------------------------
    Basically there is no scientific basis for fear that increasing 
temperatures will produce more and more cases of malaria and more and 
more malaria deaths. Scare stories about warming temperatures and 
increasing disease often utilize stories about malaria moving to 
highland areas as proof that warming temperatures will cause increases 
in disease and death. Such stories often fail to state that highland 
malaria is not new and malaria has occurred in the highland areas 
before. Indeed, malaria has occurred in highland areas around the 
globe. In decades past, malaria was even common in very cold northern 
regions of North America and Russia. In the big picture, these popular 
stories about highland malaria are just not that important. Highland 
malaria represents a relatively minor component of the global burden of 
human malaria.
    Malaria was once endemic in the United States and Canada.\2\ 
Malaria was eliminated from this large geographical area through 
systematic use of malaria control methods, growing wealth, better 
housing, and improved standards of living. It did not disappear as a 
result of lower temperatures and it will not return to the U.S. and 
Canada as a result of warming temperatures. Mankind has the ability to 
control, and in some locations, even eliminate malaria. Mankind also 
has ability to treat cases and, by and large, prevent deaths. In the 
world today, the fundamental cause of increasing malaria is our failure 
to use tools like DDT and other insecticides to prevent transmission 
and proliferation of disease. Likewise, the basic cause of huge numbers 
of malaria deaths is our failure to build proper public health 
infrastructure and to promptly diagnose and treat infections.
---------------------------------------------------------------------------
    \2\ MacLean JD, Ward BJ. The return of swamp fever: malaria in 
Canadians. CMAJ. JAN. 26, 1999; 160 (2): http://www.cmaj.ca/cgi/
reprint/160/2/211.pdf
---------------------------------------------------------------------------
    In written testimony I presented evidence to confirm the 
relationships described above.

    Question 2. If malaria is controllable, what would you say is the 
primary reason for the ineffective response to this threat?
    Response. Even though malaria is a controllable disease, it is an 
extremely complex disease to control and requires detailed knowledge of 
mosquitoes, parasites and human behavior. Resistance to malaria 
treatments has been particularly challenging and has required enormous 
investments in new malaria drugs. The somewhat fickle nature of 
international aid has meant that donor support for malaria control is 
dependent on political will and interest both in donor nations and 
malarial countries alike.
    Yet the primary reason for the ineffective response to re-emerging 
malaria has been environmental activist campaigns against public health 
programs for spraying insecticides inside homes, and DDT in particular.
    There is no disputing the fact that environmental activists have 
worked for decades to stop use of insecticides in malaria control 
programs. This activism was on display in the 1970s suite environmental 
groups to stop USAID from exporting DDT for use in national malaria 
control programs. But this was just one small step in a much larger and 
globally orchestrated campaign to eliminate house spray programs and 
public health uses of insecticides. This campaign was behind the 1997 
World Health Assembly resolution for countries to reduce reliance on 
use of insecticides for disease control. The fact that the 1997 
resolution was adopted attests to the success of the global campaign to 
shut down national spray programs. And, of course, the natural outcome 
of their success has been ongoing re-emergence of devastating diseases 
as typified by malaria and the global dengue pandemic.
    Shamefully, the same organizations that campaigned tirelessly to 
eliminate use of public health insecticides and allow diseases to re-
emerge are now claiming global warming is the cause of increasing 
malaria. The public record of many activist organizations is on public 
display in opposing public health use of insecticides and in claiming 
global warming is facilitating the re-emergence of devastating 
diseases. Environmentalists should be broadly condemned for their role 
in unleashing those diseases on poor people of the world. They should 
also be broadly condemned for dishonestly using growth of those 
diseases as a cause celebre for fundraising in modern campaigns against 
global warming.

    Question 3. Is there anything else you would like to comment on in 
regards to the hearing?
    Response. Yes, there are two issues I would like to comment on in 
regards to the hearing.
    The first issue is an inference that the spread of West Nile Virus 
was caused by warming temperatures. In the discussion part of the 
hearing I stated that warming temperatures were not responsible for WNV 
spreading across the lower 48 states. I would like to add to that 
statement.
    It is true that warming temperatures can speed development of 
mosquito larvae in water. It is also true that warming temperatures can 
speed development of viral infection in mosquitoes. Yet, warming was 
not responsible for the appearance of WNV in 1999\3\ or spread of WNV 
in the U.S. If warming temperatures were the cause of the spread of WNV 
across the contiguous 48 states, then human infections would have been 
more common in the south, where temperatures were warmer, than in the 
north, where temperatures are cooler. In fact, the opposite is true. 
With few exceptions, the greatest concentrations of human infections 
occurred in more northern areas of the country. These observations can 
be verified by a quick examination of the maps prepared by the CDC 
(see: http://diseasemaps.usgs.gov/wnv--us--human.html). Revealed in 
those maps are suggestions of far more important factors in the 
distribution and transmission of WNV than just warming temperatures.
---------------------------------------------------------------------------
    \3\ Nash D, Mostashari F, et al. The outbreak of West Nile virus 
infection in the New York City area in 1999. N Engl J Med. 2001 Jun 
14;344(24):1807-14.
---------------------------------------------------------------------------
    There is a range of ambient temperatures that permit mosquito and 
virus development and those temperatures are normally present 
throughout the U.S. during much of the Spring, during Summer months, 
and much of the Fall. In other words, conditions are favorable for 
spread of WNV with or without any unusual warming of ambient 
temperatures. Besides, as described in response to the first question, 
too much warming can actually begin to work against mosquito survival 
and disease transmission.
    The second issue I would like to comment on in regard to the 
hearing is how we should use public funds to prepare for theoretical 
harm from warming temperatures. Our first line of defense against 
insect-borne diseases has been use of chemicals to repel, irritate, or 
kill insects. This statement is as true today as it was in the mid-
1940s when mankind started using DDT for disease control. Yet, since 
the late 1960s, agencies within the United States have been working to 
systematically get rid of those chemical tools. Not only have vast 
millions, if not billions, of dollars been spent in one way or another 
to oppose public health insecticides, the U.S. government has invested 
almost nothing in research to find better chemical tools. The anti-
insecticide campaign has ruined disease control programs, eliminated 
valuable chemical tools, and gutted national research expertise. As a 
consequence, today we have far fewer cost-effective chemicals to combat 
arthropod-borne diseases like malaria than in the 1960s.
    There would be no better use of public funds to combat re-emerging 
diseases than to reinvest in research. I have presented previous 
testimony that DDT functions mostly as a spatial repellent. When it is 
sprayed on house walls it stops malaria mosquitoes from entering houses 
and transmitting malaria to residents while they sleep. It should be 
viewed as a humanitarian disaster that there is no fully funded 
research program in the world focused on finding a spatial repellent as 
substitute for DDT in malaria control programs. The public health 
community needs a new and heavily funded program to find new chemicals 
and new methods for using spatial repellents, contact irritants, and 
insecticides. I am describing an old problem that needs to be addressed 
and resolved. It is time to address this national tragedy by 
appropriating new research and development money specifically for 
finding new chemical tools and new methods of using public health 
insecticides.
                                 ______
                                 
        Response by Donald R. Roberts to an Additional Question 
                           from Senator Boxer
    Question. Do you agree that the Intergovernmental Panel on Climate 
Change in 2007 described a range of potential health effects from 
global warming, including respiratory problems and diseases, water-
borne diseases, impacts from extreme weather events, among others, in 
addition to vector-borne diseases?
    Response. Yes, I agree that the Intergovernmental Panel on Climate 
Change in 2007 described a range of potential health effects from 
global warming, including respiratory problems and diseases, water-
borne diseases, impacts from extreme weather events, among others, in 
addition to vector borne diseases. Yet, I also know they claimed global 
warming would increase malaria deaths and problems of other insect-
borne diseases. I am not well-versed in the other potential health 
harms they describe. However, their claims about climate change, 
malaria, and other arthropod-borne diseases are wrong. In my opinion, 
they are indulging in scare tactics to scare the public as a means of 
changing policies. The IPCC loses credibility through these tactics and 
it gives me pause to wonder to what extent they are indulging in the 
same scare tactics with their other claims.
    There is an important decision making process for dealing with each 
potential health effect from global warming. In each case, there should 
be balanced consideration of whether it is best, both in cost to the 
economy and long-term outcome, to research methods and solutions to the 
problem opposed to enacting policies and programs that might amount to 
endangering economies of the world, to include that of the United 
States, to stop global warming. This is particularly important given 
the unequivocal and direct link between poverty and mosquito borne 
diseases such as malaria. Policies designed to deal with global warming 
on the basis that it will increase the spread of mosquito borne 
diseases may well exacerbate these diseases and worsen the misery that 
they cause for millions of people in poor countries.

    Senator Boxer. Thank you, sir.
    Well, Dr. Roberts, your answer to global warming is more 
pesticide use. My answer is reduce the impacts of global 
warming so you don't have to get into that battle of DDT and 
who is right and who is wrong. I think that is a very big 
difference between us.
    Are you familiar with West Nile virus?
    Mr. Roberts. Yes, ma'am.
    Senator Boxer. Do you know when health officials first 
recorded its introduction here in America?
    Mr. Roberts. It was in 1999.
    Senator Boxer. Correct. Can mosquitos and other animals 
carry this disease?
    Mr. Roberts. Mosquitos do carry the disease. They transmit 
the disease.
    Senator Boxer. So the answer is yes.
    Now, 8 years later, rather than being in one State, because 
you said we already can deal with it, how many States have 
recorded finding West Nile virus?
    Mr. Roberts. West Nile virus has spread across the whole of 
the United States. It is a zoonotic infection.
    Senator Boxer. Yes, 48 States have it. So do you agree that 
preventing the conditions that allow the spread of disease-
carrying mosquitos is more health protective than taking 
actions once the disease spreads?
    Mr. Roberts. With all due respect, Senator, I do not see a 
link between warming temperatures and the spread of West Nile 
virus. West Nile virus would have spread across the United 
States regardless.
    Senator Boxer. Okay. Do you see the connection between warm 
standing water and mosquitos?
    Mr. Roberts. Of course. Yes, ma'am.
    Senator Boxer. Thank you. That answers my question.
    Dr. McCally, how do you feel about this whole notion of 
just saying, well, let's not worry about it; we will just 
spray?
    Dr. McCally. It has been correctly pointed out that the 
control of endemic infectious disease requires a number of 
modalities. I think that to slow down our response to climate 
change and the scope of the health effects that it is already 
demonstrating and causing because of disagreements about the 
specifics of the public health response to malaria or to West 
Nile virus is terribly misleading.
    Senator Boxer. I would ask you this, your testimony, Dr. 
McCally, refers to one study that estimates that global warming 
could cause the number of unsafe air days to increase by 68 
percent. What would this mean for emergency room visits by the 
most vulnerable in society, our children, the elderly and 
people with asthma?
    Dr. McCally. We know from studies in Southern California 
and Atlanta and elsewhere that emergency room visits for 
chronic lung disease, including asthma in children, tracks 
those changes very closely.
    Senator Boxer. Dr. Cooper, Commissioner Cooper, I am sorry, 
the IPCC predicts an increase in wildfires from global warming. 
What are the projected public health impacts from increased 
wildfires? This is very meaningful to me as I see my people in 
California just suffering to even find enough air to breathe 
right now. Here is just a picture you can just see. It is just 
extraordinary. There is a connection between global warming and 
these wildfires. So what does it mean to the vulnerable 
citizens?
    Ms. Cooper. Certainly, we know that wildfires post a direct 
threat to the health and safety of nearby residents, but it 
also creates dangerous levels of particulates in the air. These 
particles certainly contribute to increasing respiratory 
complications, things like increasing the incidence of asthma, 
the severity of the asthma cases as children or vulnerable 
adults present to their health care providers. They certainly 
can contribute to respiratory distress and failure, which would 
lead to death in very many cases.
    So we certainly would encourage actions that would allow us 
to put public health systems in place that would allow us to 
respond earlier to potential threats.
    Senator Boxer. Thank you very much.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chairman.
    Dr. Roberts, if I could, I was looking at your background 
with the Tropical Health Department of Preventive Medicine at 
the Uniformed Services Health Science Center. I remember fully 
when that program was begun. I want to focus on your comments. 
It is politics versus science. I know you are concerned we are 
overreacting and where we ought to be going from here.
    Mr. Roberts. My specific concern, Senator, is that we not 
enact policies precipitously, specifically on the basis of the 
reported increase in diseases like malaria and dengue, which is 
another anthroponosis, increasing beyond our ability to control 
it, specifically as a result of global warming. In my opinion, 
that will not happen.
    Senator Barrasso. When I look at West Nile virus, which we 
certainly had in my State, certainly it is something we see in 
the summer, but my understanding from the study of it was that 
it didn't have to do with global warming. It just had to do 
with the disease and how it is transmitted and how it exists. 
Do you want to comment a little bit more on that?
    Mr. Roberts. This was with West Nile?
    Senator Barrasso. Yes, sir.
    Mr. Roberts. Right. West Nile virus is a zoonotic 
infection. As a consequence, we acquire that infection mostly 
outside, outdoors. Our ability to control it, therefore, is 
extremely limited because of the very broad environment in 
which that disease cycles.
    And so, basically the disease will run its course. There is 
not a lot that we can do about it. Except in urban area of 
concentrated populations, some spraying could be beneficial. It 
is very different than what we see with malaria or, say, dengue 
fever. These are anthroponotic infections. They cycle entirely 
within mosquito populations and humans, and therefore our 
ability to control those, what I call the great diseases, is 
entirely different. We can control those through appropriate 
use of preventive measures.
    Senator Barrasso. Thank you. No further questions.
    Senator Boxer. Thank you.
    At this time, I am going to put in the record this call to 
action, Medical Leadership on Global Warming. I am going to 
share it with you, Dr. Roberts and with you, Senator Barrasso, 
because this is well over 100 leading physicians from the 
leading universities all over our great Nation, just telling us 
that this is a looming crisis and we have an obligation to act. 
I think it is very different than Dr. Roberts' point of view, 
which is a minority point of view, but I certainly respect it, 
sir. But I think we ought to place this in the record at this 
time.
    Senator Cardin, you are next.
    Senator Cardin. Commissioner Cooper, I want to talk a 
little bit about the importance of the information we get from 
State health departments and from county health departments. It 
is our warning system in our community. There is an infectious 
disease problem. The information is reliable. It helps us to 
deal with it, not only in the specific county or State in which 
the reports come in, but to deal with it in our Country and 
beyond the borders of our Country.
    It has also been modified since September 11th to deal with 
threats to our Country by either chemical or biological agents. 
The information is very valuable to all of us in trying to plan 
the appropriate policies to make sure the people of our Country 
remain healthy.
    So my question is, I am not confident that we have the 
right system in place for statistical information for non-
infectious diseases and to try to evaluate the impacts of 
global climate change. I would just like to get your assessment 
as to whether we should be more attentive to try to be more 
sophisticated in the information we get from our State and 
county health departments.
    Ms. Cooper. I think it is a great question. Certainly, 
surveillance is a very important part of the work that State 
public health departments do. These increases in the extreme 
events, whether it is heat-related, cold, and when we see 
hurricanes, floods and what not, we have pretty good warning 
systems that things are about to happen. But we don't 
necessarily have all of the systems in place to look at in 
detail the downstream effects of the climate event.
    We can look at them individually, but it would be nice if 
we could really bolster this surveillance system and bolster 
the research needed to put policies in place that are 
scientifically based. This is a new world for us. As you said, 
the world certainly changed on 9/11. This, for me, is a part of 
our emergency preparedness planing infrastructure. It is just 
one more column, if you will, of threats to the citizens of our 
State.
    Certainly, we would encourage that we find ways to fund 
systems that really help us with our planning, with our 
surveillance initiatives, and also with event responses. It is 
nice to be able to share success stories across States.
    Senator Cardin. Thank you for that response. We want 
science-based information. I think that listening to the 
testimony of all three of the witnesses on this panel, I would 
welcome suggestions as to how the Congress can encourage that 
type of information coming out of our States and counties so 
that we can make the right type of science-based decisions. 
That is what we want to do.
    So I just think we haven't really given this as much 
thought as we need to give, and I would appreciate you being on 
the front line, perhaps making some suggestions where we could 
be helpful as a partner to encourage that type of collection 
and warning system throughout our Country.
    Thank you very much, Madam Chair.
    Senator Boxer. Thank you.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Madam Chair.
    Commissioner Cooper, I am interested in the position 
statement on public health and climate change that has recently 
been adopted by the Association of State and Territorial Health 
Officials. I have not seen that yet. Is it generally consistent 
with what we have been reading about from the International 
Panel on Climate Change?
    Ms. Cooper. Yes, sir. It is consistent with that, and it is 
also consistent with the policy and position statements of the 
Centers for Disease Control and the National Governors 
Association, because the report really stresses that the weight 
of the evidence demonstrates that human factors have and will 
continue to contribute significantly to changing the world's 
climate. We support that. We believe that.
    Senator Whitehouse. And you were able to get that? Was 
there a minority report?
    Ms. Cooper. This position statement passed unanimously by 
the State and territorial health officers.
    Senator Whitehouse. Unanimously, including the State health 
officers from Wyoming and Oklahoma?
    Ms. Cooper. It passed unanimously.
    Senator Whitehouse. Well, I would like to find out how you 
managed to do that because there is a marked contrast between, 
Madam Chair, the unanimity of the trained health professionals 
in every single State in the Country, who can get together and 
just weeks ago come out with a unanimous statement, and the 
dialogue that still persists in the Senate chamber on this 
subject. I don't know if, Commissioner Cooper, you would care 
to offer an explanation as to how it is that your group manages 
to find unanimity on this issue, and we find even consensus 
difficult to achieve.
    Ms. Cooper. I believe we try to focus on what our roles are 
as State health officers. We truly, again, will stand to 
protect the health of the public, promote health, and improve 
health. If you can agree that those three things are important, 
and you look for policies that support moving in that 
direction. I think that grounding in that, instead of looking 
at our differences, we looked at our similarities. We looked at 
what was good for the citizens of our State, and I believe that 
was one of the driving factors.
    Senator Whitehouse. Well, I am impressed that it was 
unanimous, and I appreciate your efforts. I thank you for your 
testimony.
    Madam Chair.
    Senator Boxer. Thank you very much.
    Of course, Senator Whitehouse, we are so behind, not only 
the public health community, and there are exceptions, one 
noted at the table. But we are so far behind. Remember, there 
are still people who said HIV doesn't cause AIDS and tobacco 
doesn't cause cancer. You are never going to have unanimity, 
but basically there is as close to unanimity as we can get 
among the scientists, and among the doctors. And yet it is so 
elusive here in the United States Senate, but we are going to 
of course try to challenge that in this Committee.
    I would ask unanimous consent to place into the record a 
letter we received, dated October 22, from the American Public 
Health Association. It says, ``We want to make it clear that 
climate change is a public health issue, from changes in 
vector-borne diseases to impacts on drinking water supply, to 
extreme weather events. We are already seeing the effects of 
climate change on health across the globe.'' So we are going to 
put that letter in the record.
    [The referenced document follows on page 57.]
    Senator Boxer. And then we have the National Association of 
County and City Health Officials. A lot of my colleagues on the 
other side of the aisle say let the States and local people 
take the lead. Well, here is what they say: ``The National 
Association of County and City Health Officials believes that 
climate change has serious far-reaching health implications for 
this and future generations.'' And they say that the health 
departments have to address these impacts.
    [The referenced document follows on page 59.]
    Senator Boxer. And then the World Health Organization, they 
say they have carried out both qualitative reviews and 
quantitative assessments of the health risks posed by climate 
change. The organization concluded that the health hazards 
posed by climate change are significant, wide-ranging, 
distributed throughout the globe, and difficult to reverse.
    [The referenced document follows on page 61.]
    Senator Boxer. So I would just call on my colleagues to 
heed the people who are the healers in this world and in this 
Country, and get off your duff and support good legislation and 
let's get it going now.
    Senator Whitehouse. Madam Chair?
    Senator Boxer. Yes, I would yield to you.
    Senator Whitehouse. I just wanted to ask if the Association 
of State and Territorial Health Officials' position statement 
on climate change and public health is in the record of this 
hearing?
    Senator Boxer. I would like you to add that to what we just 
put in the record.
    Senator Whitehouse. Okay. May I ask unanimous consent to 
make it part of the record?
    Senator Boxer. Yes.
    [The referenced document follows on page 65.]
    Senator Boxer. Absolutely. Would you like to quote from a 
couple of sentences from it?
    Senator Whitehouse. It is all good. I would start reading 
it and I would go all the way through.
    [Laughter.]
    Senator Boxer. All right, Senator.
    I just want to thank our panel very, very much. Again, we 
are making a record here in this Committee, a record that we 
think must not be ignored by colleagues from both sides of the 
aisle and by the American people.
    Thank you.
    We stand adjourned.
    [Whereupon, at 11:20 a.m. the committee was adjourned.]
    [Additional material submitted for the record follows.]
    [GRAPHIC] [TIFF OMITTED] T3578.014
    
    [GRAPHIC] [TIFF OMITTED] T3578.015
    
    [GRAPHIC] [TIFF OMITTED] T3578.016
    
    [GRAPHIC] [TIFF OMITTED] T3578.017
    
    [GRAPHIC] [TIFF OMITTED] T3578.018
    
    [GRAPHIC] [TIFF OMITTED] T3578.019
    
    [GRAPHIC] [TIFF OMITTED] T3578.020
    
    [GRAPHIC] [TIFF OMITTED] T3578.021
    
    [GRAPHIC] [TIFF OMITTED] T3578.022
    
    [GRAPHIC] [TIFF OMITTED] T3578.023
    
  

                                  <all>

</pre></body></html>
